<html>
<title> - STOLEN IDENTITIES: THE IMPACT OF RACIST STEREOTYPES ON INDIGENOUS PEOPLE</title>
<body><pre>[Senate Hearing 112-37]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-37
 
   STOLEN IDENTITIES: THE IMPACT OF RACIST STEREOTYPES ON INDIGENOUS 
                                 PEOPLE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
66-994                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  

                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2011......................................     1
Statement of Senator Johnson.....................................    21
Statement of Senator Udall.......................................     1

                               Witnesses

Fryberg, Stephanie A., Ph.D, Associate Professor of Social and 
  Cultural Psychology, University of Arizona.....................    27
    Prepared statement...........................................    29
Hall, Hon. Tex G., Chairman, Mandan, Hidatsa & Arikara Nation; 
  Chairman, Great Plains Tribal Chairman's Association; 
  accompanied by Tina Marie Osceola, representing the Seminole 
  Tribe of Florida...............................................     3
    Prepared statement...........................................     4
Harjo, Suzan Shown, President, The Morning Star Institute........     6
    Prepared statement...........................................     8
Spencer, Chaske, Actor/Producer, Partner, Urban Dream Productions    33
    Prepared statement...........................................    35
Teters, Charlene, Studio Arts Faculty, Institute of American 
  Indian Arts....................................................    17
    Prepared statement...........................................    19
Warne, Jim E., President, Warrior Society Development............    42
    Prepared statement...........................................    46

                                Appendix

Aleiss, Angela, Ph.D., Visiting Assistant Professor at the 
  University of California--Los Angeles; Professor, California 
  State University--Long Beach, prepared statement...............    55
Borrero, Roberto Mukaro Agueibana, President, United 
  Confederation of Taino People Office of International Relations 
  and Regional Coordination, prepared statement..................    72
Campbell, Hon. Ben Nighthorse, U.S. Senator, Retired; Former 
  Chairman, Senate Committee on Indian Affairs, prepared 
  statement......................................................    53
Cleveland, Bonita, Chair, Quileute Tribe, prepared statement.....    54
Geronimo, Harlyn, on behalf of Geronimo, historic Apache leader 
  and his surviving lineal descendants, prepared statement.......    63
Gipp, David M., President, United Tribes Technical College, 
  prepared statement.............................................    57
Gunderson, Harvey S. and Carol S., articles on race-based 
  nicknames......................................................    82
Indigenous Peoples Working Group, prepared statement with 
  attachment.....................................................    64
Inter Tribal Council of Arizona, Resolution 0411.................    79
Osceola, Tina Marie, Historic Resources Officer, Seminole Tribe 
  of Florida, prepared statement with attachments................    73
Pesata, Levi, President, Jicarilla Apache Nation, prepared 
  statement......................................................    70
Steinfeldt, Jesse A., Ph.D., Assistant Professor, Counseling and 
  Educational Psychology, Indiana University--Bloomington, 
  prepared statement.............................................    67
Zeller, Joe, President, Indian Arts and Crafts Association, 
  prepared statement.............................................    76


   STOLEN IDENTITIES: THE IMPACT OF RACIST STEREOTYPES ON INDIGENOUS 
                                 PEOPLE

                              ----------                              


                         THURSDAY, MAY 5, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Tom Udall, presiding.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you all for being here today. I call 
the meeting to order.
    Unfortunately, Chairman Akaka had a minor accident at home 
that precludes him from being at the hearing today. I know that 
he really wished to be here. On his behalf, I would like to 
welcome you to our hearing entitled Stolen Identities: The 
Impact of Racist Stereotypes on Indigenous Peoples.
    In this hearing, we will explore how Indian mascots, common 
caricatures and prevalent mis-portrayals of Native people have 
far-reaching impacts on the identity and sense of self-worth of 
Native peoples, and negatively impacts how all of our Nation's 
people perceive and relate to each other. It is my hope that 
this hearing will help bring more understanding about the real 
impacts of these common mis-portrayals to light, so that we can 
as a Nation resolve these concerns.
    I would especially like to thank Ms. Charlene Teters for 
being here today, a professor from the Institute of American 
Indian Arts in my State of New Mexico. The Institute is a great 
asset to young Native artists and to the Nation as a whole. I 
appreciate Ms. Teters' work and the work of the Institute to 
create beauty, retain cultural knowledge and move aggressively 
in a new era of technology and creativity. It is my hope that 
the young artists coming out of IAIA will brandish strong and 
creative talents that can help to wash away the ugly 
stereotypes and perceptions of the past.
    In the last couple of days, most of us in this room have 
heard the news reports on the association of Geronimo being 
used as a code word associated with the successful mission to 
kill Osama bin Laden. It goes without saying that all of us 
feel a tremendous sense of relief and pride toward our military 
personnel, intelligence community and Commander In Chief, both 
past and present, for accomplishing this mission. This is 
especially relevant for Native Americans, who historically have 
the highest per capita rate of military service of any ethnic 
group. Tens of thousands of Native Americans serve in our 
military today, defending their homeland, just as Geronimo did.
    Here today we also have the President of the Navajo Nation, 
Ben Shelly. Ben and I both know that 11 Navajos have died in 
military service since 9/11. Just last night, our local New 
Mexico news stations, KOAT-7, interviewed Geronimo's great-
grandson, Joseph Geronimo, who explained the offense he feels 
based on the report's of his ancestor's name being used. My 
office has tried to get clarification about the code name from 
the Department of Defense. Their protocol prohibits the release 
of information regarding operation names. As a result, the 
details of how Geronimo's name was used are unclear.
    I find the association of Geronimo with bin Laden to be 
highly inappropriate and culturally insensitive. It highlights 
a serious issue and the very issue we have come here to discuss 
today: a socially ingrained acceptance of derogatory portrayals 
of indigenous people.
    I hope that we can use this hearing as an opportunity to 
communicate to the Nation the importance of recognizing and 
rejecting derogatory stereotypes. And since no other members of 
the Committee have joined us quite yet, I think there will be 
others here, some of them may give opening statements. I may 
interrupt based on schedules and things. But at this point, we 
are going to go directly to the panel.
    First, to let you know that all statements, all of your 
full statement will be included in the record. So you can use 
your five minutes to summarize or talk as you wish. There is 
limited time to conduct this hearing and we want to hear from 
all who want to participate in the discussion.
    The hearing record will be open for two weeks from today 
and I encourage everyone to submit your comments through 
written testimony. I want to remind the witnesses to please 
limit your oral testimony to five minutes. I would like to 
invite the first panel to the table, you all are here and ready 
to go. First, I would like to welcome the Honorable Tex Hall, 
the Chairman of the Mandan, Hidatsa and Arikara. Chairman Hall 
also serves as the Chairman of the Great Plans Tribal 
Chairman's Association and is joining us from New Town, North 
Dakota.
    We will also hear from Suzan Harjo, President of the 
Morning Star Institute, who is here in Washington. I think, 
Suzan, you have had a long acquaintance with these issues, and 
I believe you have written articles and books. We are very 
happy to have you here today.
    And as I mentioned earlier, our final witness on the panel 
will be Charlene Teters, a professor with the Institute of 
American Indian Arts in Santa Fe, New Mexico.
    Welcome to everyone. Chairman Hall, we are ready to go with 
you and then we will just go down the line. Great to have you 
here today.

  STATEMENT OF HON. TEX G. HALL, CHAIRMAN, MANDAN, HIDATSA & 
   ARIKARA NATION; CHAIRMAN, GREAT PLAINS TRIBAL CHAIRMAN'S 
 ASSOCIATION; ACCOMPANIED BY TINA MARIE OSCEOLA, REPRESENTING 
                 THE SEMINOLE TRIBE OF FLORIDA

    Mr. Hall. Thank you, Chairman Udall. My name is Tex Hall, I 
am the Tribal Chairman of the Mandan, Hidatsa and Arikara 
Tribal Nation on the Fort Berthold Reservation in New Town, 
North Dakota. I see our Chief Forebears is hanging from the 
wall here, a fabulous portrait of our great Chief. So it does 
bring to mind the comments that you made, Chairman, of Geronimo 
and the implications of what that means to the Mescalero Apache 
people.
    I too would be very saddened if our forebears were included 
in a code name for Osama bin Laden. So this is a misfortunate 
incident that we need to acknowledge and try to rectify.
    But I also want to congratulate President Obama and the 
military for the capture and the killing of Osama bin Laden for 
the many wrongs that have been inflicted upon the United States 
of America.
    I also wanted to mention that in my State of North Dakota, 
we have the Fighting Sioux nickname at the University of North 
Dakota. The Great Plains Tribal Chairman's Association passed a 
resolution in opposition of using Native Americans for mascots 
and how discriminatory and stereotypical this is, especially 
when you talk about human rights and the rights especially of 
our young people in education, to go to education and to be 
free to participate fully, to get the highest level of 
educational achievement they can without discriminatory and 
stereotypical derogatory mascots."
    I really noticed a billboard here, it really jumps out at 
you, as we see the Washington Redskins and the Atlanta Braves 
and the Cleveland Indians, these are real negative 
stereotypical images that really makes us think again back home 
of the University of North Dakota Fighting Sioux. You would 
think that we in North Dakota would be beyond this by now, but 
we are not. Fortunately, the National Collegiate Athletic 
Association has stood by the tribes. And in 2007, finally 
trying to get conclusion on this issue of not using the 
Fighting Sioux nickname and the mascot, they said something 
very honorable, that the University of North Dakota would have 
to get the consent of the Spirit Lake Sioux and the Standing 
Rock Sioux.
    The Standing Rock Sioux have always not given consent, and 
you would think that would be pretty black and white, pretty 
plain. But unfortunately, the North Dakota State legislature 
just passed a bill to retain the University of North Dakota 
Fighting Sioux nickname. It is really unfortunate, because none 
of the tribes were consulted and none of the Native American 
citizens of the tribal nations in North Dakota were included at 
that table for that bill to be passed.
    So a recent meeting was held, and the NCAA was invited to 
North Dakota, and I am happy to report that the NCAA stood by 
their decision and said, unless the tribes of North Dakota, the 
Standing Rock Sioux and the Spirit Lake Sioux, are included and 
give their consent, you will no longer be able to use the 
nickname, even though you passed a bill.
    So Mr. Chairman, that is a quick summary of where we have 
come from in North Dakota. We are still trying to get beyond 
the use of the Fighting Sioux nickname and mascot at the 
University of North Dakota.
    Mr. Chairman, I have one minute left, I was wondering if I 
could have a guest of mine make a comment if she would, please, 
Tina Osceola, from the Seminole Tribe. Tina, are you here?
    She is coming on behalf of Chairman Mitchell Cypress.
    Ms. Osceola. Thank you, Chairman Hall, and thank you, 
Senator Udall. Tina Marie Osceola, for the record, representing 
the Seminole Tribe of Florida. To be real brief and no go over 
chairman Hall's allotted time, we wanted to make sure that we 
were heard on the record, that we wanted to elevate this issue 
to the President of the United States, and we did in March, 
because it was incredibly harmful to have Seminoles compared to 
al Qaeda terrorists.
    What we are looking for is not just a verbal apology or 
something written for Seminoles. It is about all Native people. 
As we have been deeply embroiled in the issue of mascots and 
the use of images for years, this isn't about just images, or 
just hurt feelings and those being offended. Senator Akaka is 
right, this is about the future, this is about building a 
legacy for our people.
    And this is also about building a better tomorrow. We can't 
do that without relevance. We can't do that without being real 
to both the President of the United States, to the Senate, to 
the House of Representatives. This is about sovereignty.
    Our issue was about sovereignty. The tribal council was 
able to make a decision, just like the Senate, just like the 
House of Representatives. We understand what our sovereignty 
means; we understand what the future of its protection is; and 
we understand that if we are considered enemies of the State, 
we understand what that means. We understand what the 
implications are, what the reality is. That is not good for 
America.
    Thank you.
    [The prepared statement of Mr. Hall follows:]

  Prepared Statement of Hon. Tex G. Hall, Chairman, Mandan, Hidatsa & 
  Arikara Nation; Chairman, Great Plains Tribal Chairman's Association

    I am testifying today on behalf of the Mandan, Hidatsa & Arika 
Nation and the Great Plains Tribal Chairman's Association.
    I wish to thank the Committee and the Chairman for bringing this 
important topic into the public spotlight. As you know, where I am 
from, this is quite the controversial issue. The University of North 
Dakota's continued use of the name and image of ``The Fighting Sioux'' 
has landed us in the middle of a national media firestorm.
    Too often though, the debate rages all around us, while we, the 
First Americans, often have the last word. I hope that this hearing 
will bring our voice to the forefront of the debate and provide some 
clarity and guidance for schools and people across the country.
    As you know, there are many who view the use of Native American 
images by colleges or universities to be heroic, spirited, or just 
generally positive. On the other hand, there are many others who argue 
that the use of such images as promotes negative stereotypes, which can 
be offensive, demeaning and insensitive.
    While I cannot speak for every single Native American in this 
country, I can speak from my experiences as a schoolteacher, sports 
team player, coach, and tournament administrator, as well as the 
elected leader of my tribe and a representative of many more.

Position of the MHA Nation and Great Plains Tribes
    My position, and the position of my Tribe, and many others is 
this--we find the use of Native American mascots to be dehumanizing and 
disrespectful. I have submitted a resolution passed last month by the 
Great Plains Tribal Chairman's Association supporting the NCAA's 
efforts to eliminate the use of American Indian mascots, and supporting 
the University of North Dakota's Senate, the University's Student 
Senate, the North Dakota State Board of Higher Education and the North 
Dakota Senate Education Committee's call to stop the University from 
using the ``Fighting Sioux'' nickname and logo.

UND Fighting Sioux Controversy
    As you know, the University of North Dakota reached an agreement 
with the NCAA in 2007 to stop using the nickname and logo by August 15, 
2011, unless it received approval from two of North Dakota's tribes--
the Spirit Lake and Standing Rock Sioux Tribes. The Standing Rock Sioux 
Tribe has been firmly opposed to the use of the ``Fighting Sioux'' and 
thus the University, if it is to comply with its own promise, must stop 
using the name and logo this year.
    This situation has been complicated by a law passed this year by 
the North Dakota Legislature, and signed by the Governor, requiring the 
University to keep the ``Fighting Sioux'' name and logo. The law has 
also raised the issue of whether the North Dakota Attorney General will 
sue the NCAA.
    The NCAA just reminded the University that nothing has changed 
since 2007 and that the settlement agreement still stands. And, since 
the Standing Rock Sioux Tribe has not authorized the University to keep 
the Fighting Sioux mascot, then the University has to no choice by to 
abide by the terms that it agreed to and retire the Fighting Sioux 
mascot. Otherwise, the NCAA could impose sanctions including barring 
UND teams from hosting post-season tournaments or wearing proscribed 
attire during those tournaments. The NCAA also said that in its view, 
the North Dakota law ``cannot change the NCAA policy nor alter the 
contracted terms of the agreement.''
    As I testified earlier, our tribe and the Great Plains Tribal 
Chairman's Association stand with the Standing Rock Sioux Tribe on this 
issue and call on the University to start shopping for a new mascot and 
logo.

Our Concerns
    My Tribe's concerns arise out of our concern for our children. We 
believe that every child has the potential to be a great leader, 
athlete, scholar, president, or medicine man or woman. We try and teach 
them that nothing can hold them back. But at the same time, we 
recognize that there are forces built on institutional racism and 
economic reality that can sometimes hold them back. My administration 
is built on hope and opportunity and one thing that we can do something 
about is challenging negative cultural stereotypes.
    The sad reality is that most mascot names that refer to Native 
Americans reinforce negative cultural stereotypes: Redskins, the 
Fighting Sioux, and the grossly demeaning Cleveland Indians logo. We 
want to make sure that all of our children have the opportunity to 
create his or her own image for themselves and not have images created 
for them, whether by the universities, high schools, or the media.
    The American Psychological Association summed up this issue by 
stating:

        ``The use of American Indian mascots as symbols in schools and 
        university athletic programs is particularly troubling because 
        schools are places of learning. These mascots are teaching 
        stereotypical, misleading and too often, insulting images of 
        American Indians. These negative lessons are not just affecting 
        American Indian students; they are sending the wrong message to 
        all students.''

                                --Former APA President Ronald F. Levant

    We believe that the use of Indians mascots create a negative 
environment for our Native American students, and other students too, 
by creating a hostile learning environment, by reaffirming negative 
stereotypes of American Indians that most of us grew up with, and by 
grossly misinforming students (and adults) who have had no or little 
contact with Native Americans in the first place. The negative 
environment perpetuated by Indian mascots undermines our cultures, our 
traditions, and our spirituality. And, as with most forms of 
institutional racism, the use of those images are perpetuated by 
institutions which have power.
    And that is why I am glad to be here to speak to these powers. And 
that is why I am glad to have your support and friendship, Mr. 
Chairman, and Committee members. Together, we can fight power with 
power.
    To this end, I would like to remind the Committee that we do not 
stand alone. The National Congress of American Indians, the National 
Education Association, the American Psychological Association, and the 
NCAA stand with us.

Conclusion
    NBA legend and University of North Dakota graduate Phil Jackson 
asked the University not too long ago, ``What is to be gained by 
keeping the Fighting Sioux? '' The ``objectification of people is 
limiting to ourselves'' as well as to the people we objectify. ``We 
have a chance to do the right thing.''
    We have a chance to make a change for the better, to make our 
children's lives richer and to lift the bonds of oppression surrounding 
them.
    I hope that the University of North Dakota, and all schools, do 
indeed take the chance and do the right thing.

    Senator Udall. Thank you very much. Now we will move on to 
Suzan Harjo. Suzan, welcome.

  STATEMENT OF SUZAN SHOWN HARJO, PRESIDENT, THE MORNING STAR 
                           INSTITUTE

    Ms. Harjo. Thank you, Senator. Well, yes, we must start 
with Geronimo, the man and the leader and the person who has 
become a fine role model for our children all over Indian 
Country. For him to be compared to a terrorist and to be called 
an enemy is shocking, really shocking, that this happened.
    It wasn't just that his name was used, although that would 
be bad enough. Because what happens in America is that our 
names are not our own, they are stolen, our tribal names, our 
personal names. Then we are renamed in order to control us, 
very frankly. That has been going on for a very long time, and 
was made official through the ``Civilization Regulations'' from 
the 1880s to the 1930s, which banned religious ceremonies, 
banned the Sun Dance and other so-called religious ceremonies, 
as they say; banned any act of medicine man, the so-called 
medicine man; confined Native people to reservations.
    This was 50 years of generational religious suppression 
that forced a lot of the Native languages and religions 
underground, and most of them never re-emerged, certainly not 
as full as they had been in the past. It was in this time that 
Geronimo was captured and his people were prisoners of war on 
the Fort Sill Apache Reservation, and were never permitted to 
go back to their territory in New Mexico. He was not permitted 
to stay in Fort Sill Apache, and the indignities that have been 
heaped upon him don't begin or end with Yale University, but 
certainly they have been prominent there in the Skull and Bones 
Society, which purports to open every meeting with the head of 
Geronimo, that Prescott Bush and others said they dug up in 
Fort Sill. We don't know the answer to that, if it really is 
the head of Geronimo or if they just say it. How awful, in 
either case.
    So for all that he went through and his people went 
through, having every Native action criminalized to now be 
called an enemy, Geronimo EKIA, that is the stunning thing, 
enemy killed in action, Geronimo, enemy killed in action. My 
father was a World War II hero in the storied Thunderbird 
division, the 45th Infantry Division. And his company, Company 
C, was comprised solely of Indian young men from Chilocco 
Indian Boarding School. They, who had grown up in Euchee Indian 
School and then Chilocco Indian School and had their languages 
beaten out of them, it was hoped, by the people who did the 
beating. They didn't succeed. So here all these enterprising 
Chilocco Indian boarding school guys on the troop ship to North 
Africa made up their code of the languages, phrases and words 
from the languages that were spoken by the students in secret 
at Chilocco. And the coordinates were the structures and the 
landscapes of Chilocco.
    My dad was not an enemy when he helped win World War II or 
when his legs were almost shot off at Monte Cassino. He was not 
an enemy when he served in Allied Forces Southern Europe with 
NATO in Napoli. He was an ally.
    We take very seriously our treaties of peace and 
friendship. They promise, we promise, the United States 
promises in our treaties of peace and friendship that we are 
going to be peaceful and friendly. Some Native nations even 
declared, in World War II, war on Japan and on Germany, so that 
they could fight alongside the United States and their young 
men would not be drafted, they would be loaned. Onondaga was 
prominent in that respect.
    Our history is very complicated. But this is our Country in 
a way that it is no one else's Country, because no one brought 
any land here with them. This will always be our Country. So 
when we are slurred in public in this way, we all take offense.
    It is a logical outgrowth, I think, of people working in 
this racially charged Washington Metropolitan area, where 
Native people are almost not safe on the streets, there is such 
a toxic environment during football season. The Washington 
football team has been something that Native people all over 
the Country object to, because it is the team in the Nation's 
Capitol, and it is the worst thing that we can be called. We 
have, I have and others, spent 17 years litigating this issue. 
We won after the first seven years before the Patent and 
Trademark Board, in a three-judge panel decision, unanimously 
in our favor, saying that the term is disparaging, holds us up 
to contempt and ridicule and so forth. And then we spent the 
next 10 years defending the agency's ruling, because that is 
how it works with the Patent and Trademark Board.
    We lost, ultimately, the Supreme Court did not grant 
certiorari. But the circuit decision said that this was not on 
the merits, this was solely on a matter of laches, the loophole 
of laches, which uniquely was interpreted in our instance to 
mean that we didn't file our lawsuit soon enough after we had 
reached our majority. So we organized another lawsuit, when it 
looked like it was going that way in 2006, of Native young 
people, the identical case, and they who were 18 to 24 when 
they filed, presumably will not have laches problem.
    I don't know if we have to give a lawsuit to every young 
Native person when they turn 18 or what we are going to have to 
do. But at some point, we are going to have to get rid of all 
of these Native references in sports. The good news is we have 
eliminated two-thirds of them since the first one fell in 1970, 
``Little Red'' at the University of Oklahoma. There were over 
3,000 at that time, and now there are under 1,000.
    So there is a societal sea change, and people are 
understanding the problem with these race-based mascots and 
names and behaviors. And they are doing something to change. 
But something has to be done in professional sports. We have 
suggested a piece of legislation that we prepared for the 
convenience of the Committee. I will be happy to respond to any 
questions about that, and of course, to meet with the staff and 
members.
    Thank you so much for your time.
    [The prepared statement of Ms. Harjo follows:]

 Prepared Statement of Suzan Shown Harjo, President, The Morning Star 
                               Institute

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Udall. Thank you very much.
    Charlene Teters, please go ahead.

STATEMENT OF CHARLENE TETERS, STUDIO ARTS FACULTY, INSTITUTE OF 
                      AMERICAN INDIAN ARTS

    Ms. Teters. Thank you, Chairman Udall. And thank you, Mr. 
Johnson, for being here.
    My name is Charlene Teters. I am a member of the Spokane 
Tribe in Washington State. I am honored to serve as Senior 
Faculty at the Institute of American Indian Arts in Santa Fe, 
New Mexico.
    We have amongst our student body some of the brightest 
young talents and future leadership for Native America. These 
young people are amongst our best representation for our Native 
nations and our culture.
    You have my written testimony, so I would like to focus on 
the last part of what I testified about. It has to do with what 
we have been talking about here.
    I have an MFA, a Masters in Fine Art. So I have been asking 
myself what I can add to this discussion at the level of the 
United States Senate. There are so many who have better 
training, better ability to speak about institutionalized 
racism. Those better trained to speak about the social impact, 
the emotional impact, the spiritual impact, or even the 
financial impact of these stereotypes.
    But the struggle for freedom from organized insult, public 
ridicule, and national collusion is my story. And it is Native 
America's story. These stereotypes and community attitudes are 
an unnecessary burden. They are an unnecessary burden for those 
who go to school where they have these images.
    I went to the University of Illinois, it was a chief mascot 
there. It can easily be alleviated by eliminating this use.
    But I think it is important to step back and look at 
history. Because history plays an important role in defining 
acts and practices as racist, regardless of the intent of the 
larger community. When the history is one of domination and 
subordination, as is the history of the indigenous people in 
the United States, then what counts is how the minority group 
understands its portrayal. History is very powerful. Depending 
on who is telling the story, it can be used to demobilize a 
people or it can be used to inspire a people.
    When the Administration used our historical hero, the name 
of our hero Geronimo, a family member, in this connection with 
military action it takes from us. It takes from us our heroes.
    Before this land was the United States, it was the homeland 
of many Indian nations. And yet many Americans know very little 
about us. They know very little about the people whose land 
they occupy. But we are here. We are here. We survived manifest 
destiny, not just physically here, we are culturally here. As 
parents and teachers, we work hard to instill in our children a 
sense of pride in our culture, our story, our names to 
ourselves. Our historical heroes, our family members, people 
like Chief Pontiac, Chief Joseph, Geronimo.
    And yet we must compete with mass media's image or the 
military's use of our historical heroes as code for this 
Country's enemies.
    In part, I am here to ask, as an aunt, my two nephews 
fought in Iraq and Afghanistan. In part, I am here to ask the 
question, how do we ask American Indians who serve this Nation 
in uniform, who have sacrificed life in defense of this Nation 
in so many wars in so many places, and do so with dignity and 
honor and commitment, is it possible at this moment of national 
triumph that the deepest insult was not delivered upon al Qaeda 
abroad, but to a small population here at home?
    There are more than 500 Indian nations within the U.S. We 
all have a rich history, language, culture. To turn us into 
stereotypes is to stop seeing us as individuals and to trap us 
in someone else's mistaken idea of who were are. These images 
are so powerful that many non-native people do not see us as 
modern people with a valued history, living culture, language 
or a future. When school teams use us as mascots, it goes 
against education's highest goal, to teach history, instead of 
reinforcing stereotypes. And these schools graduate people who 
go on to become teachers, judges, governors, presidents, who 
impact Native people no matter where we live in this Country.
    When the United States military uses these terms and 
symbols, it goes against its greatest honor. Our military 
discharges people who go on to become teachers, judges, 
governors and presidents, who impact Native people no matter 
where we live.
    Many American Indian people have done their part to win the 
hearts and minds of their neighbors. Yet we are still imaged as 
the enemy. Now it is time for our national government to do its 
part. This may not require new laws, but it does cry out for 
action.
    Thank you.
    [The prepared statement of Ms. Teters follows:]

 Prepared Statement of Charlene Teters, Studio Arts Faculty, Institute 
                        of American Indian Arts

Introduction
    Good afternoon, Chairman Akaka, Vice Chairman Barrasso, and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Charlene Teters; I am a member of the Spokane Nation in Spokane 
Washington. I am honored to serve as a senior faculty in Studio Arts at 
the prestigious, Institute of American Indian Arts. We have amongst our 
student body, some of the brightest young talent and future leadership 
for Native America. These young people are among our best 
representation of our native nations and our culture.
    Let me first share with the Committee a short personal story that 
brought me to speaking out about the impact of racist stereotypes on 
Indigenous People. I was one of three American Indian students 
recruited to the University of Illinois' (UIUC) masters program in 
studio arts in 1988. When I received my letter of acceptance, it was a 
dream comes true; to pursue an advance degree in studio arts, a dream 
that soon became a nightmare. When we were recruited, not one of us 
asked . . . what is your mascot? Who would think that you would need to 
ask that question? Our university systems must be places where all 
peoples' identity is respected. What the three of us witnessed was 
anything but honoring or respectful of Indian people.
    We witnessed a university community deeply embedded with AI 
stereotypes because this publically funded university's creation and 
use of ``Chief Illiniwek'' as its' mascot. We witnessed sororities and 
fraternities playing with things central to our spiritual way of life 
while drinking heavily. We witnessed the mascot dance to Hollywood's 
version of our drums and songs. Found images meant to represent Indian 
people on welcome mats, wallpaper, whiskey bottles, toilet paper; 
anything these stereotypes could be put on it was, and if it could be 
sold at a profit the university licensed it.
    The student body at UIUC numbers was near 45,000. Once one of the 
three of us, meaning the only three students on campus who could prove 
they were American Indian, criticized the use of our culture for the 
university's athletic identity the push back was fast, furious, harsh, 
threatening and devastating. In no time there were few public places 
that felt remotely safe. We could not go out to eat, buy groceries, 
gas, the mall, a movie, let alone a sporting event without being told 
how unwelcome we had become. I, with young children in public school, 
heard and saw the emotional assault that took place on my 2 children. 
While UIUC is a very large university, it exists in a small college 
town. In the end one of three left, another and I stayed, but not 
without being effected for life.
    There were those who stood with us. Organizations familiar with the 
struggles of people attacked for what they were born: AJC, NOW, NCAI, 
AIM, SCLC, SPLC, and others, who at a distance lent what support they 
could. Close in there were the courageous: YWCA, African American 
House, and Progressive Students Alliance. These may have been small, 
but in a sea of hostility, welcome support.
    These community and often tax-supported stereotypes are the 
definition of ``Tyranny of the Majority,'' not simply because American 
Indians are such a small segment of the general population, but because 
this gateway racism comes in under the guises of community good, 
community identity. Candy coated for children and consumption, 
profiting adults and organizations, woven into the fabric of everyday 
life, it is tortuous for those who have bought in to see the horror of 
racism in these images they love and cheer. However, these grinning 
``Little Red Sambos'' dig at the pain of history, the reality of 
religious and cultural oppression and hurt both Indian people and the 
prospects of reconciliation. No one really comes out ahead where racism 
sets the table.
    I have been asking myself what can I add to this discussion at the 
level of the United States Senate. There are many who may be better 
trained to speak of institutionalized racism, those better trained to 
speak about social impact, emotional impact, spiritual impact, even 
financial impact. But this struggle for freedom from organized insults, 
public ridicule and national collusion is my story. It is Indian 
people's story. I believe one day these stereotypes will be looked upon 
with the same distain and wonderment that Frito Bandito, Sambo and 
other effigies of historic racial attitudes are seen today. No one is 
clamoring to return these symbols to American's popular landscape. 
These Indian symbols and mascots are no different.
    Often in cases of symbols, as these seen as innocuous, the question 
is asked, ``What harm do they do?'' A thing can be wrong without a 
quantifiable injury to be pointed at. With that said, I want to share 
with the Committee my experience with my family, students and friends 
made along the way. Serious depression and suicidal tendencies are 
rarely spoken of in the moment. It was many years before I heard from 
others how close my own children came to taking suicide as a way out of 
the pain. For them they were attacked and bullied at school and in 
public both for who they are, and of course who their parents are. 
Others unrelated to the conflict that raged in Illinois felt the pain 
deeply, too. Just last month I spoke at the University of Utah and 
discovered how devastated many of the few Indian students there feel, 
some in deep depression, at least one genuinely suicidal.
    University of Utah Utes. Here is a case where it may well be that a 
tribal council is playing along to get along. Fill in the blank: ``do 
you mind being my______?'' Even the question is repugnant, frankly, 
its' cowardly.
    It may be difficult for those of mainstream persuasion and 
socialization to understand the impact of daily insults on even a 
strong psyche. Already the isolation an American Indian student can 
feel separated from tribe, community, familiar customs and faces is all 
too real when attending a university, or moving to an urban setting. 
Too few make it through the educational system to the post-secondary 
level. These stereotypes and community attitudes are an unnecessary 
burden, a burden that can be alleviated by elimination of these 
symbols.
    But the daily insults are not limited to athletic team identities. 
Well documented are the film stereotypes that continue to be introduced 
to new generations through cable and Internet. Screenwriters continue 
to use ``Chief'' and derogatory references from a time some feel has 
gone by. Deeply concerning is the continued use of American Indian 
references by the United States military. General Norman Schwarzkopf 
telling the world that Desert Storm was ``like going in to Indian 
country,'' hardware and weapons names, and now we who are Indian can 
not escape ``Geronimo'' is dead and all the other proclamations we will 
now have to endure in the moment and in the future. Did anyone stop to 
think, would American Indians want to be synonymous with Osama bin 
Laden? I think not. This United States Senate Committee on Indian 
Affairs has picked a salient moment to ask the question, why not!
    Not only do we not ask the question: should we continue today as we 
have done in the past with these ever present relics of racism; should 
we continue to mascot American Indians. We do not ask what else happens 
as a result. To me the answer is plain as day, too few if any who roots 
for this Nation's capitol Washington Redskins asks how American Indians 
feel when the opposing fans yell ``kill, beat, defeat . . . the 
redskins!'' no one ever asks the question. We who have answered it 
without having been asked understand how few want to know. As a nation 
we appear not to want to hear the answer, so the question is avoided.
    In part I am here today to ask this question, how do we ask 
American Indians who serve in uniform, who have sacrificed life in 
defense of this young nation in so many wars in so many places, to 
reconcile the irreconcilable, to defend the indefensible, and to do so 
with dignity, honor and commitment. Is it possible that at this moment 
of national triumph that the deepest insult was not delivered upon al 
Qaida abroad but to a small population here at home. And if anyone, who 
will apologize?
    Before this land was the United States, it was the homeland of many 
Indian nations. And yet, many American's know very little about us. We 
survived manifest destiny not just physically, we are here culturally. 
As parents and as teachers, we work hard to instill in our children a 
sense of pride in our culture, our stories, our names for ourselves, 
our historical heroes. Like Pontiac, Chief Joseph, and Geronimo and yet 
we find we must compete with mass media's image, or the military's use 
of our historical heroes as code for the country's enemies.
    History plays an important role in defining acts and practices as 
racist, regardless of the intent of the larger community group. When 
the history is one of domination and subordination as is the history of 
the Indigenous people in the US, then what counts is how the minority 
group understands its portrayal. History is very powerful, depending on 
who is telling the story. It can be used to demobilize a people or it 
can be used to inspire. When the administration uses our historical 
heroes name ``Geronimo'' in connection with military action, it takes 
from us, our heroes.

Conclusion
    There are more than 500 Indian Nations within the United States. 
All have their own rich history, language and culture. To turn us into 
stereotypes is to stop seeing us as individuals and traps us in someone 
else's mistaken idea of who we are. These images are so powerful that 
many non-Indian people do not see us as modern people with a valued 
history, living culture and language or a future. When school teams use 
us as mascots it goes against education's highest goals. These schools' 
graduate people who go on to become, teachers, judges, governors, and 
presidents who impact native communities, no matter where we live. When 
the United State military uses these terms and symbols it goes against 
its greater honor. Our military discharges people who go on to become, 
teachers, judges, governors, and presidents who impact native 
communities, no matter where we live.
    Many American Indians have done their part to win the hearts and 
minds of their neighbors. Now it is time for our national government to 
do its' part. This may not require new laws. This does cry out for 
action.

    Senator Udall. Thank you very much.
    Thank you, Senator Johnson, for joining us. I will let you 
proceed with questioning at this point, and I may also have 
questions in a little bit. I am sure we will have others 
joining us.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    A question for Chairman Hall. What impacts have you seen as 
a result of negative stereotyping on your ability as a tribal 
leader to interact with other governments, businesses and the 
local community?
    Mr. Hall. Thank you for the question, Senator Johnson. It 
is good to see you.
    As a tribal leader, in our State of North Dakota, when we 
talk about the Fighting Sioux nickname and you talk about 
education and you talk about government to government 
cooperation and partnership, working together, it is all good 
on words, it is all good on paper. When you pass laws, like our 
State legislature did, without consultation, without 
cooperation, without consulting and getting consent from the 
Standing Rock Sioux Tribe, it goes against those words. So they 
become empty words. It is hard to move to other issues, like 
health care, like energy development, like economic 
development, like natural resource development. It is hard to 
get to those issues, because it is like you couldn't get the 
proper respect and proper dignity and relationship with the 
tribes, and the consent and the partnership in the first place.
    So it makes it hard to get beyond that if it is just on 
paper. So we are kind of in a difficult situation.
    Senator Johnson. How do you respond to the points that, 
when there is the ``Fighting Sioux,'' but how do you respond to 
the issue of, there is the Fighting Irish and the Vikings and 
the Padres and so on? Other teams are nicknamed legitimately. 
How do you distinguish those as a different category?
    Mr. Hall. It is really easy for us, I guess, Senator 
Johnson, because we have been used as negative nicknames and 
negative mascots for so many years. Even looking at Burt 
Lancaster, looking at the movies, we were portrayed negatively 
where, if Burt Lancaster or John Wayne took one shot, ten 
Indians died. So our children grew up seeing negative 
stereotypes that the Indians are always the enemy. We are not 
just the enemy, with the Fighting Irish football team, that is 
pretty limited to the Notre Dame football team. But the 
Fighting Sioux seems not to be just limited, but expanded to 
all areas of life for the Native American.
    And again, especially for our youth and our education.
    Senator Johnson. Ms. Harjo, has the 2005 NCAA policy been 
effective in eliminating the use of indigenous-based mascots 
and imagery? Are there other policies that have been successful 
in eliminating the use of indigenous-based mascots and imagery?
    Ms. Harjo. I think it has been very successful for those 
schools that haven't convinced an Indian tribe or nation that 
that tribe or nation should give them their name or let them 
denigrate their name. So we have a lot of education to do in 
our own communities. That is a problem for us. I understand 
that some Native peoples think, well, if we just give them 
this, maybe they will leave us alone on gaming or leave us 
alone on water rights or other things, we will just let them 
have a little bit of racism.
    The problem is that racism knows no bounds, and there is no 
such thing as a little bit of racism or a name that is just a 
little racist or an action that is a little racist. Racism is 
huge and can overwhelm you.
    As far as public policies, the NCAA has done a good job. I 
felt the legislation that my Cheyenne brother, Ben Nighthorse 
Campbell, introduced at one point, with the companion bill in 
the House by Representative John Lewis, to not let the RFK 
Stadium be used for any purpose that, for any entity that would 
comment on or characterize a person's physical attributes, 
including skin color. That of course preceded, and maybe was 
the impetus, for Jack Kent Cooke moving the team to other 
places, to the suburbs of Washington, D.C.
    What we need, the legislation that I am proposing deals 
with the Washington football team name. But it really goes to 
who should provide for the Federal Government's mistakes. The 
U.S. Patent and Trademark Board has admitted that it made a 
mistake in registering the trademarks for the team name and 
logos and associated the cheerleaders' trademarks and that sort 
of thing. So it already admitted that it made a mistake.
    Yet we seven plaintiffs had to go on and have our own 
counsel and litigate this case for 17 years, because that 
Federal entity doesn't go to court. It is the competing parties 
that go to court. And we were terribly out-matched and out-
monied. We weren't just dealing with the Washington football 
team, we were dealing with the NFL, which wasn't a party, but 
which paid for all the litigation for the first seven years.
    So we were fighting Pepsi, backed up by Coke. Just huge 
monoliths. And had we not had pro bono counsel, we would have 
not been able to make it as far as we have. And now the burden 
of that entire litigation falls to six young Native people who 
have all their lives before them, and they need to get on with 
them. Yet they have this burden for the whole of Indian Country 
and for the whole of the Nation to make things right.
    Senator Johnson. Ms. Teters, you have been a leader on this 
issue for over 20 years. Have you seen a change in the 
attitudes of school officials? Are they more aware of the 
impacts of Native-themed mascots?
    Ms. Teters. Yes and no. I do an awful lot of speaking on 
other campuses and where the issue is being debated. I was just 
at the University of Utah a couple of weeks ago. Unfortunately 
what I find is the quality of the debate really doesn't improve 
much. It is like we keep going around in these cycles. And it 
is like at the University of Illinois, where I was a student, 
and where we challenged the use of Chief Illiniwek mascot 
there, it was a 20-year struggle to retire that mascot. And so 
the outward images are gone, but the attitudes are still there.
    Senator Johnson. With respect to the 2005 NCAA directive?
    Ms. Teters. Well, that was the reason why they did retire 
it, because it did come down to basically money for them. You 
would hope that people would retire these for the right 
reasons, because it is the right thing to do. But often, for 
us, this is very, very difficult for us to address these 
issues, because we are not a large group of people . And we are 
not a large voting block. So it is very difficult sometimes for 
us to even get at this level, where you are listening to us. 
And I appreciate this time.
    Senator Johnson. Over to you, Chairman Udall.
    Senator Udall. Thank you very much, Senator Johnson.
    I think he opened an area of inquiry that I want to follow 
up on a little bit. The NCAA 2005 policy, I noticed that in 
your testimony, Ms. Harjo, that since 1970, these ``Indian 
stereotypes,'' there were 3,000, they have come down today to 
less than 1,000. Do you think the policy that was put in place 
in 2005 accelerated that or not? What is your perception of 
that?
    Ms. Harjo. Oh, it definitely helped. I don't know that it 
accelerated it. But every time some entity, whether it is the 
Civil Rights Commission or this good Committee holding this 
particular oversight hearing, every time the National Education 
Association makes a statement or some entity outside our 
immediate circle steps in and says, this is racism and we can't 
have this, then it helps. It always helps.
    So the NCAA did good and mighty work. That is still helping 
and still bearing fruit. Of course, there are those in North 
Dakota who don't like it, and those in certain States who don't 
like it. But these are toys of racism that people have gotten 
used to and you can't pry them away from them. They are like 
aberrant children who cling to these things.
    We are often asked, why do you waste your time on these 
things, don't you have more important things to do? And first 
of all, no one who has ever asked that question has ever done 
anything for our people. We are the ones who do that work, the 
hard work on the important issues. And this is one of them, 
because it is fundamental, it is overarching, it is 
undergirding. This is the stuff that determines what kind of 
public policy there is going to be for us.
    And members of Congress don't make good public policy for 
cartoons. A lot of people perceive us as not quite human, 
because those are the messages that come down to us through 
popular culture, that we are less than human. The list that 
Senator Johnson ticked off before was so instructive of what 
people are saying to him, like the Fighting Irish. People 
compare us to the leprechaun. Well, the leprechaun is not a 
human. And on that issue, the Fighting Irish, that was a self-
description. It is sort of like an Indian team calling itself 
warriors or something. That is a different thing from name-
calling from the outside.
    And with the Vikings and others, we are not descendants of 
the Native people. We are the Native people, same languages, 
same religions, same cultures, same dances, same songs. We are 
the people. Yet we are compared to cowboys, that is a 
profession, or Vikings, an era. We are not an era, we are human 
beings. That is the big news about us in America is that, yes, 
we are a small population, and sometimes we are an invisible 
population. So racism against us is also not perceived.
    And what this Committee does in holding this hearing is 
help break through that and enable a few people to say, oh, of 
course, what were we thinking of. Let's change this, let's do 
something about this. If the Sioux people don't want Fighting 
Sioux, it shouldn't be around. That is so simple.
    So yes, we are down to a little over 900 of these so-called 
Native references. But they are the tough nuts.
    Senator Udall. Thank you very much. I hope that as you have 
described it, the hearing that we are having today will also, 
like the NCAA policy, open the doors, make people think and 
continue to push the trend, as you talk about, in terms of a 
sea change, those numbers going down. We hope they go down 
dramatically.
    Charlene, you talked, I know in your written testimony, 
about your experience at the University of Illinois, as a 
masters student, I think you were one of three Native students 
in a large university. And the mascot there was challenged. I 
think your description was that the backlash was fast, furious, 
harsh, threatening and devastating. Why was that? What do you 
think was at the root of that? Is there any way to have the 
discussion without having that backlash, do you think? You have 
real experience in this area, I think all the panelists do.
    Ms. Teters. When I was there as a student, there were three 
of us recruited. And that was my first thought, was, this is an 
educated group of people. I will tell them, Marcus will tell 
them and they will get it.
    But what was saw was a pattern of hostility. It was hostile 
before we opened our mouths. So when the three of us got there, 
and it was a dream come true for all of us, we were all first 
generation to work on an advanced degree, to go to a Big 10 
university. So it was Marcus Ammerman who spoke out first, and 
wrote a letter to the student newspaper, who became targeted. 
People were riding him and belittling him. He lived in a 
student dormitory type setting. And really couldn't separate 
himself from the hostility that in the community, because he 
dared open his mouth about how he felt with this community that 
was permeated with stereotypes of Native people.
    And as much as the university and a lot of these 
universities and organizations always describe theirs as 
different, ours is dignified somehow, ours is noble. But you 
can't control what the community does with these images. So we 
saw all kinds of things. There was a Miss Illini squaw contest, 
there was a bar in downtown in the campus town that had a 
falling down drunken Indian, over and over again. This is where 
the sorority and fraternity brothers and sisters would go and 
act out their negative stereotypes of us.
    So when a university has this as their identity, it becomes 
a platform for people to act out things. Because let's face it, 
Americans know very little about us. At the root of what was 
going on in terms of the hostility at this university, and it 
is not so different other places, is that they don't know much 
about us. They may even be surprised that we are still here. 
Because I have heard that, what, Indians are still here? 
Sometimes they will say things like, well, gee, you don't look 
Indian. What they really mean is we don't look like the 
stereotype that they manufactured.
    So it is insult on top of insult. And so Marcus was 
targeted. And you would call it, it is hate crime, what was 
happening to him. He was targeted in a way that pushed him out. 
And we are pushed out of these universities and schools more 
than any other people, because it becomes so hostile.
    One of the professors who recruited all three of us told 
the two of us left, keep your mouth shut. Get your degree and 
get out. So we really aren't given much choice in terms of how 
to deal with this. We are almost always told to just shut up, 
internalize it, don't you know we are honoring you? Stuff like 
that. It is really, what I am describing is a hostile 
environment.
    And I was there with my children, who also had to witness 
this hostility that is being played out by the community. 
Because one, they don't want to know that what they are doing 
is possibly racist. So they immediately, the backlash is 
immediate. That is what I mean, immediate. They targeted my 
children.
    The only reason I was able to survive that hostile 
environment is I had a lot of help. There were a lot of people 
who came and stood with me, people who understood racism. One 
of those organizations, the American Jewish Committee, who was 
doing research for a document called Bigotry on Campuses. And 
as an expert on anti-Semitism and hate, he recognized the 
pattern of hate, by looking at some of the newspaper articles. 
The news was also being used as a tool to target me, to make me 
look stupid and ridiculous.
    That is often, when we address issues that are of concern 
in our community, the press is often used as a tool. So it is 
more time than we have in terms of talking about how hostile 
that was. But I was able to survive it, I did get my MFA from 
there. But I had a lot of help, had a lot of people from 
different organizations, racial justice groups, who stood with 
me. And a lot of people, and Suzan came to our campus, a number 
of people came to lend their voice to the student struggle on 
that campus. That is why we were able to push it.
    But it was a 20-year struggle on this campus. And I really 
resent that this is left on the shoulders of the few Native 
people in these communities to try to push this forward. 
Because it is not just a hostile environment for Native people. 
It is any people of consciousness who are addressing these 
issues become targeted as well.
    So it needs to be seen as, this is not a Native American 
concern, it is a concern of racism. It is racism, and address 
it in that way.
    Senator Udall. Chairman Hall, one of the things she just 
mentioned there was the impact on her children. I think that is 
something that is a thread through all of your testimony, is 
that we want to break the cycle, we don't want this passed on 
to our children. Do you have any thoughts on that, and in 
hearing the other testimony? How can we do that? How do we 
approach it in that way? What are the strongest things we could 
do to make sure that our children don't grow up with that kind 
of imprint and feeling and it impacting them in a derogatory 
way?
    Mr. Hall. A great question, Mr. Chairman. Just a couple of 
thoughts. First of all, I have a daughter that is graduating 
May 29th. She can't wear her eagle feather. She is in a non-
Native school. And we have another tribal member graduating, a 
boy, and same thing, he can't--or she was going to bead her 
cap, and he was going to wear eagle feather, and they can't do 
that.
    So all the parents are concerned. They are going in and 
they are going to talk about what the eagle feather means. It 
is the highest honor, so graduation is a high honor. They come 
from a sovereign tribe, these young students who are 
graduating, they are a member of a federally-recognized 
sovereign tribe. So the school needs to be educated.
    To the second point, Mr. Chairman, I really think that we 
can't stop with not continuing to educate about what an eagle 
feather means and what a member of a sovereign federally-
recognized tribe and its member, and that significance. Because 
only Native Americans can possess eagle feathers. So this is 
not to be offensive to that non-Indian school, it is part of 
the honoring of that Native American student. So that education 
is real key.
    If there is proper education like that, and there are 
advocates, and it has to come from more than just a couple of 
folks, as Charlene and Suzan have mentioned, I as a tribal 
chairman have to advocate for those students. I can't sit back 
as a tribal leader and say, oh, leave it to the parents, let 
those guys do that. Tribal councils and tribal leaders have to 
step forward and say, or pass resolutions to the schools, and 
half of our students go to the non-Indian public schools. 
Working groups, resolutions, I think the Senate Committee on 
Indian Affairs could establish a working group, Mr. Chairman, 
especially when it comes to the name of the Geronimo chief with 
the code name for Osama bin Laden, working with Defense, the 
military, White House, tribal leaders, the testimony that was 
given today. I can't just say that without volunteering, so I 
would volunteer myself, Chairman Udall, to be a part of that 
working group and do whatever I can to continue to help educate 
and advocate for the right thing to do. Our tribes are 
sovereign governments, and things as eagle feathers are a high 
honor. They are not to disrespect a non-public school or 
anything else.
    Senator Udall. Thank you very much, Chairman Hall. I really 
want to thank this panel for your testimony. I think you have 
addressed this issue in a very thoughtful way. I hope that our 
action here today will move us in a positive direction.
    At this point I am going to excuse this panel, and we have 
a second panel that I am going to call forward. Thank you 
again.
    So we want our panel two members to come forward. I would 
like to invite them to the table.
    As they are coming up, let me do introductions. Testifying 
first is Stephanie Fryberg, the Associate Professor of 
Psychology at the University of Arizona in Tucson. The next 
witness after Ms. Fryberg is Chaske Spencer, a Lakota actor, 
producer and partner with Urban Dreams Productions in New York. 
Mr. Spencer is best known for his portrayal as Sam in the 
Twilight films.
    Then our final witness will be Mr. Jim Warne, President of 
the Warrior Society Development in San Diego, California.
    Welcome to all of you. It is great to have you today.
    Ms. Fryberg, why don't we start with you and move to the 
left. Thank you for being here today.

STATEMENT OF STEPHANIE A. FRYBERG, Ph.D, ASSOCIATE PROFESSOR OF 
                SOCIAL AND CULTURAL PSYCHOLOGY, 
                     UNIVERSITY OF ARIZONA

    Ms. Fryberg. Chairman Udall and Members of the Committee, 
please allow me to express appreciation for the opportunity to 
speak on behalf of 154,000 members and affiliates of the 
American Psychological Association about the use of American 
Indian mascots.
    My name is Dr. Stephanie Fryberg, and I am an enrolled 
member of the Tulalip Tribes in Washington State. [Greeting in 
native tongue.] I want to take a moment from my tribe and my 
family to express our thanks and to express our greeting.
    I am an associate professor of social and cultural 
psychology at the University of Arizona and a researcher 
dedicated to alleviating education disparities for American 
Indian and low income children. I have conducted many studies 
on the psychological effects of using American Indian mascots, 
and I am the author of a number of published articles on the 
topic.
    In terms of the use of American Indian mascots, the 
carefully-honed research methods and theories in the field of 
psychology provide a basis for examining and assessing the 
psychological consequences for American Indians, non-Natives 
and race relations in American society. In my statement, I will 
provide a brief overview of the empirical research on the 
psychological consequences of using these mascots.
    In summary, the research finds that American Indian mascots 
have negative psychological consequences for American Indians, 
positive psychological consequences for European Americans and 
negative effects on race relations in the U.S.
    Let me begin by discussing the psychological consequences 
for American Indians. A growing number of studies revealed that 
American Indian mascots have a wide variety of negative 
psychological consequences. Exposing American Indian high 
school and college students to American Indian mascots 
decreases self-esteem, feelings of community worth and 
achievement-related aspirations and increased levels of anxiety 
and depression. In fact, one study found that being exposed to 
an American Indian mascot lowered self-esteem significantly 
more than being exposed to a set of negative stereotypes, such 
as alcoholism, high school dropout rates and suicide.
    Beyond these psychological consequences, American Indian 
mascots have also been shown to negatively influence the campus 
climate. American Indian students at a large university with an 
American Indian mascot reported more threats to personal safety 
and more experiences of discrimination than non-Native 
students. Thus, American Indian mascots in school context have 
the potential to cause short-term and long-term harm for 
American Indians.
    Now, as we turn to the effects for European Americans, past 
research has shown the stereotypes typically exacerbate 
inequality by producing negative effects for the stereotyped 
group and positive effects for the high status group. This 
pattern holds for the use of American Indian mascots. In 
contrast to the negative psychological consequences for 
American Indians, research reveals that European Americans may 
benefit from the use of American Indian mascots. One study 
showed that European Americans exposed to an American Indian 
mascot reported a boost in self-esteem compared to European 
Americans in the no-mascot control condition. Another study 
revealed that European Americans reported liking and feeling 
more similar to a European American wearing an American Indian 
mascot tee-shirt than to the same person wearing an Irish tee-
shirt or a plain tee-shirt. These psychological benefits may 
partially explain the tenacity with which some Americans cling 
to American Indian mascots.
    Taken together, the work summarized above highlights the 
discrepancy of psychological consequences associated with 
American Indian mascots. After exposure to an American Indian 
mascot, American Indians reported reduced feelings of self-
esteem and community worth, and fewer achievement-related 
aspirations, whereas European Americans, when exposed to the 
same mascots, reported a boost in feelings of self-worth. And 
rather than being seen as culturally or racially insensitive 
for endorsing stereotypes of American Indians, they were liked 
more by their European American peers.
    Consistent with the stereotyping literature, American 
Indian mascots foster racial and ethnic inequality in this 
Country.
    Finally, I will address the negative consequences for race 
relations. Mounting research reveals that American Indian 
mascots undermine race relations by activating negative 
stereotypes of American Indians and by increasing the 
likelihood that non-Native individuals will negatively evaluate 
and interact with American Indians. For example, one study 
examined 1,699 user comments from an online internet forum that 
was created in response to a newspaper article about the 
University of North Dakota Fighting Sioux mascot. UND mascot 
supporters expressed not only negative attitudes and 
stereotypes about American Indians, they believed that American 
Indians owed them something. That is, that American Indians 
should be grateful to them for using the mascot.
    The issue with respect to race relations is not simply that 
the use of American Indian mascots activated negative 
stereotypes of American Indians, but rather that these mascots 
influence how European Americans, particularly those who 
support the use of American Indian mascots, think and act 
toward American Indians and other racial and ethnic minority 
groups. One study found, for example, that European American 
students who agreed with the use of American Indian mascots 
were more likely to engage in racial prejudice and 
discrimination against American Indian students than European 
American students who disagreed with the use of American Indian 
mascots.
    The research findings on the use of American Indian mascots 
are proving to be remarkably consistent across studies, and in 
terms of how the studies align with past research on 
stereotyping and prejudice. American Indian mascots reveal 
negative consequences for the targeted minority group and 
positive consequences for the mainstream majority group.
    Hence, the use of American Indian mascots not only promotes 
the development, endorsement and activation of negative 
attitudes and behaviors toward contemporary American Indians, 
but they reinforce inequality, and in so doing, undermine race 
relations in this Country.
    I want to express my gratitude for the opportunity to be 
here, and I look forward to hearing your questions. Thank you.
    [The prepared statement of Ms. Fryberg follows:]

 Prepared Statement of Stephanie A. Fryberg, Ph.D, Associate Professor 
        of Social and Cultural Psychology, University of Arizona

    Chairman Akaka, Ranking Member Barrasso, and Members of the 
Committee, please allow me to express appreciation for the opportunity 
to speak on behalf of the 154,000 members and affiliates of the 
American Psychological Association (APA) about the use of American 
Indian mascots. My name is Dr. Stephanie Fryberg. I am an enrolled 
member of the Tulalip Tribes in Washington State, and I bring warm 
greetings from my family and tribal community. I am an Associate 
Professor of Social and Cultural Psychology at the University of 
Arizona, and a researcher dedicated to alleviating education 
disparities for American Indian and low-income children. I have 
conducted many studies on the psychological effects of using American 
Indian mascots and I am the author of a number of published articles on 
the topic.
    APA, as an organization, has a long-standing commitment to using 
psychological knowledge to improve people's lives and to benefit 
society. The membership includes researchers, practitioners, and 
educators whose work has played a pivotal role in facilitating the 
resolution of personal and societal challenges in diverse, 
multicultural contexts. In terms of the use of American Indian mascots, 
the carefully honed research methods and theories of our field provide 
a basis for examining and assessing the psychological consequences for 
American Indians, non-Natives, and race relations in American society.
    In my statement, I will provide a brief overview of the empirical 
research on the psychological consequences of using American Indian 
mascots. In summary, the research finds that American Indian mascots 
have (1) negative psychological consequences for American Indians, (2) 
positive psychological consequences for European Americans, and (3) 
negative effects on race relations in the U.S.
Negative Psychological Consequences for American Indians
    A growing number of studies reveal that American Indian mascots 
have a variety of negative psychological consequences for American 
Indians. Exposing American Indian high school and college students to 
American Indian mascots decreased self-esteem, feelings of community 
worth (i.e., the belief that one's community can improve itself), and 
achievement related aspirations (Fryberg, Markus, Oyserman, & Stone, 
2008; Fryberg & Watts, 2010), and increased levels of anxiety and 
depression (LaRocque, 2004). In fact, one study found that being 
exposed to an American Indian mascot lowered self-esteem significantly 
more than being exposed to a set of negative stereotypes (i.e., 
alcoholism, suicide, teen-pregnancy, high school dropout rates) 
(Fryberg et al., 2008). Also notable, another study showed that even 
when an American Indian mascot represented an American Indian 
university, the negative effects were the same as when the mascot 
represented a largely non-Native organization (e.g., University of 
Illinois or Cleveland Indians Major League Baseball team; Fryberg et 
al., 2008).
    Beyond these psychological consequences, American Indian mascots 
also negatively influenced the campus climate for American Indian 
students. American Indian students at a large university with an 
American Indian mascot reported more threats to personal safety and 
experiences of discrimination, and higher levels of stress and tension 
than non-Native students (LaRocque, 2004). Thus, American Indian 
mascots in school contexts have the potential to cause harm, both short 
term (e.g., on self-esteem) and long term (e.g., negative campus 
climate) to American Indians.
Positive Psychological Consequences for European Americans
    Stereotypes typically exacerbate inequality by producing negative 
effects for the stigmatized target group and positive effects for high 
status groups. This pattern holds for the use of American Indian 
mascots. In contrast to the negative psychological consequences for 
American Indians, research reveals that European Americans may benefit 
from the use of American Indian mascots (Fryberg & Oyserman, 2011). One 
study showed that European American students exposed to American Indian 
mascots in a news article or on a t-shirt reported a boost in self-
esteem compared to European Americans in the no mascot control 
condition. Another study revealed that European Americans also reported 
liking and feeling more similar to a European American wearing an 
American Indian mascot t-shirts than to the same person wearing an 
Irish t-shirt or a plain t-shirt. These studies suggest that European 
Americans may benefit from both exposure (i.e., feel better about 
themselves) and using (i.e., are liked more) American Indian mascots, 
and that this benefit may partially explain the tenacity with which 
some Americans cling to American Indian mascots.
    Taken together, the work summarized above highlights the 
discrepancy of psychological consequences associated with American 
Indian mascots. After exposure to an American Indian mascot, American 
Indians reported reduced feelings of self-esteem and community worth, 
fewer achievement related aspirations, and higher rates of anxiety and 
depression. In contrast, European Americans, when exposed to the same 
mascots, report a boost in feelings of self worth and are liked more, 
rather than being seen as culturally or racially insensitive for 
endorsing stereotypes of American Indians. Consistent with the 
stereotyping literature, American Indian mascots are one of the taken-
for-granted features of everyday life that serve to foster racial and 
ethnic inequality in this country.

Negative Consequences for Race Relations
    Mounting research reveals that American Indian mascots undermine 
race relations by activating negative stereotypes of American Indians 
and by increasing the likelihood that non-Native individuals will 
negatively evaluate and interact with American Indians (Nelson, 2009). 
For example, one study examined 1699 user comments from an online 
Internet forum that was created in response to a newspaper article 
about the University of North Dakota (UND) Fighting Sioux mascot 
(Steinfeldt et al., 2010). Reflecting antipathy toward American 
Indians, 32 percent of the comments attacked the credibility and 
legitimacy of American Indians who opposed the use of American Indian 
mascots, 21 percent responded disparagingly toward American Indians 
(e.g., just get over it), 21 percent noted that American Indians should 
be grateful that the mascot ``honors'' them and 7 percent directly 
vilified American Indians (e.g., savages, drunks). Moreover, revealing 
a lack of empathy for American Indians, 20 percent reported that 
American Indians are not the victims, but rather that the users of 
American Indian mascots are the true victims because their mascot was 
banned. In summary, UND mascot supporters not only expressed negative 
attitudes and stereotypes about American Indians, they believed that 
American Indians owed them something (i.e., they should be grateful) 
for using the mascot.
    Beyond explicit (conscious) attitudes and stereotypes, American 
Indian mascots may also elicit implicit (i.e., unconscious) attitudes 
and stereotypes (Nosek et al., 2007). A recent study revealed that 
exposure to American Indian mascots brought to mind negative and 
positive implicit stereotypes of contemporary American Indians (Stone, 
Focella, Fryberg, & Covarrubias, 2011). Notably, however, the study 
found that the ease with which negative stereotypes came to mind was 
significantly quicker than the ease with which positive stereotypes 
came to mind, which suggests that American Indian mascots more readily 
yield implicit negative stereotypes of contemporary American Indians. 
Moreover, while the negative stereotype effect was limited to the 
American Indian mascot condition, the positive stereotype effect was 
found in all three mascot conditions (i.e., American Indian mascot, 
Irish mascot and non-ethnic mascot). This result suggests that the 
sports mascots in general seem to bring forth positive stereotypes of 
contemporary American Indians, but only American Indian mascots elicit 
negative stereotypes of this group.
    The issue, with respect to race relations, is not simply that the 
use of American Indian mascots activated negative stereotypes of 
American Indians, in important contexts such as education, but rather 
that these mascots influence how European Americans, particularly those 
who support the use of American Indian mascots, think and act toward 
American Indians and other racial-ethnic minority groups. One study, 
for example, found that European American students who agreed with the 
use of American Indian mascots were more likely to engage in racial 
prejudice and discrimination against American Indian students than 
European American students who disagreed with American Indian mascots 
(Gonzalez, 2005). In terms of other racial-ethnic minority groups, two 
studies revealed that European American participants who were exposed 
to American Indian mascots endorsed more anti-Asian American 
stereotypes relative to participants who had not been exposed to the 
mascots (Kim-Prieto, Goldstein, Okazaki, & Kirschner, 2010). This 
research demonstrated that once a person starts thinking in 
stereotypical terms about one racial-ethnic minority group, the same 
type of stereotypic thinking can spill over onto other stigmatized 
groups.
    The research findings on the use of American Indian mascots are 
proving to be remarkably consistent across studies and in terms of how 
the studies align with past research on stereotyping and prejudice. The 
research empirically demonstrates, for the first time, that the 
negative stereotypes promoted by American Indian mascots reveal 
negative consequences for the targeted minority group and positive 
consequences for the mainstream majority group. Hence, the use of 
American Indian mascots not only promotes the development, endorsement, 
and activation of negative attitudes and behaviors toward contemporary 
American Indians, but they reinforce inequality and, in so doing, 
undermine race relations in this country.
    As I conclude, I want to express my gratitude for the opportunity 
to discuss the relevant research with you today. I look forward to 
hearing your questions and welcome the chance to respond. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Udall. Thank you for your testimony.
    Mr. Spencer?

  STATEMENT OF CHASKE SPENCER, ACTOR/PRODUCER, PARTNER, URBAN 
                       DREAM PRODUCTIONS

    Mr. Spencer. Hello. My name is Chaske Spencer. I am an 
actor and a producer. I am here to testify today as someone who 
has been directly impacted by racist stereotypes of indigenous 
peoples.
    Although I have experienced this as a Native man, it is not 
a Native issue, I believe it is a human issue. I believe we 
need to approach it as humanistic approach that fosters 
dignity, equality, and value and diversity in all cultures.
    I wish to thank the Committee and the Chairman for bringing 
this important topic into the public spotlight, for inviting me 
to speak at these proceedings. I am honored and grateful for 
this opportunity to express my thoughts and stand on the 
matter.
    As a child, I was very confused when I saw mascots and 
propaganda about Native Americans. I experienced feelings of 
shame, guilt, and since a lot of media and propaganda portrayed 
us as savages, people of ignorance, and lack of sophistication, 
I spent the majority of my childhood struggling to understand 
my people and identifying with the current day role models, 
since most of my Native heroes were historical.
    I was frustrated, because I was the target of racism as a 
child. I was called many negative names, so bad I prefer not to 
repeat them here. I went to one school where the vast majority 
of kids were Caucasian. I was one of four or five Native kids, 
and we were ignored most of the time. Needless to say, I got 
into some fights as a kid. Throughout the years, I learned to 
deal with it in better ways, but underlying frustration still 
remains.
    When our children are targeted with racist comments and 
actions, regardless of their race, religion, culture, et 
cetera, it impacts them for life, whether they show it or not. 
Their self-worth, their drive, their relationships they create 
with other people are affected in a myriad of ways. In today's 
society, it is almost impossible to escape the influence of 
stereotypes in the media, sports, entertainment and politics. 
There are people in the spotlight who have transcended 
stereotypes such as Will Smith, Denzel Washington, Jennifer 
Lopez, Oprah, Hillary Clinton, Halle Berry, President Obama. 
For the most part, the vast majority are still impacted daily 
by them.
    Where team names and mascots are concerned, all I will say 
to you is that I have never seen a team called a wetback. A lot 
of people just don't understand the negative impact.
    A couple of hundred years ago, Native Americans were 
considered terrorists to some people. These stereotypes still 
prevail in media today. For example, the hunt for bin Laden is 
portrayed with wild west imagery and has been nicknamed 
Geronimo, when in reality it is thanks to the Native American's 
legendary bravery that the two elite Army units received the 
legendary nickname Geronimo.
    Whether it is intentional or unintentional, we need to be 
more conscious of the associations we make. When we associate 
Geronimo with someone like Osama bin Laden, even if it is used 
to depict the courage necessary to capture him, the negative 
impact is inevitable.
    As a culture, we need to focus on expanding the 
opportunities of all peoples. After all, we are in the land of 
opportunity. Any stereotype of any people will narrow the 
opportunities of that people.
    As a young actor, I was faced with limited opportunities in 
terms of roles, other than stereotypically Native roles. These 
roles I had to take, because I needed to work at that point. 
But at some point, I might pass on some. While this has 
dramatically shifted over the years, it is still by no means 
where it could be. We have seen the struggle for women 
throughout the years standing for equality-empowering 
portrayals, in all forms of media. Yet women still earn less 
than a man in this Country in the same jobs in many instances. 
We see it with almost every ethnic group you can think of. 
While it is moving in the right direction, without a 
concentrated, without united effort, without new legislation, 
without new accepted practices in industries and in 
communities, the movement will not match the much-needed 
paradigm shift.
    I do think things are changing. In this younger generation, 
the teens have a more positive view of Native Americans. I 
think that is because of movies such as Twilight, which really 
has a lot of young people looking at Natives in a different 
light. Recently I have turned down roles that somehow portrayed 
Native American people in negative light. It is a pivotal time 
where I have unique opportunity to break down the stereotypes. 
I try to make decisions in my career that support that as much 
as possible.
    I have been fortunate to have opportunities to go beyond 
the stereotypes with such projects as Twilight. As a producer, 
my company and my partners are Urban Dreams Productions are 
conscious only to choosing material that is not stereotypical 
in nature, whether it be stereotypical to Native people or any 
people. Stereotypes by inherent nature limit the opportunities 
of that group of people.
    I am committed to expanding opportunities for people of all 
kinds. The work that companies like summit are doing is crucial 
to positively impacting young people all over, not only Native 
young people. But when I go to conventions for Twilight, what 
becomes obvious is that all youth from every race or community 
is excited about these modern, beyond-stereotype roles that are 
being portrayed by young Native actors. We are not just Native 
actors, we are actors. I have seen more and more roles being 
open to any ethnicity which has impacted the opportunities that 
I have been privileged to have. It is rare that specifically 
Native roles go beyond what has been traditionally known as 
leather and feathers, stereotype roles. That is why films like 
Twilight are so important to us as people.
    The reason I chose to do my last film, and independent film 
called Shouting Secrets, is because it was about a family. It 
could be a Caucasian family, an African American family, an 
Asian American family. Really any family, and it happens just 
to be a Native American family. That factor is the biggest 
reason I was attached to the project.
    One of the biggest opportunities I have now as a Native 
actor, given the mainstream spotlight and attention, is to help 
shine the light on issues that have impacted us for decades and 
in some cases, generations. Again, I would like to thank you 
for having me here.
    [The prepared statement of Mr. Spencer follows:]

 Prepared Statement of Chaske Spencer, Actor/Producer, Partner, Urban 
                           Dream Productions

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Udall. Thank you very much.
    Mr. Warne, please proceed.

     STATEMENT OF JIM E. WARNE, PRESIDENT, WARRIOR SOCIETY 
                          DEVELOPMENT

    Mr. Warne. Thank you, Mr. Chairman and Committee. I am very 
pleased that we are here today to discuss this. I am not 
pleased that it is necessary that we have to be here to discuss 
this.
    But it is a key time, I think, in our history and our 
history to be made, that this will make some big differences 
for Indian people. Your support and your actions from your 
positions in the Senate will obviously bring this to light to 
much more people than it has in the past.
    My name is Jim Warne. My Lakota name is [name in native 
tongue]. So you can stick to Jim if you prefer.
    Again, my experiences, I am a member of NFL alumni. I was 
drafted by the Cincinnati Bengals out of Arizona State. I 
played against teams that use mascots in college as well. I was 
the one Indian mostly on most of my teams, I was the one 
Indian. A lot of my Samoan and Hawaiian brothers adopted me on 
some of those football teams. So it was nice to have some of 
that indigenous perspective with my teammates.
    My work in Warrior Society Development, that is my company, 
and I work a lot with Indian youth. I do a lot of camps. They 
are there for the athletics, and to learn that, and have fun. 
But I really incorporate a lot of education on the importance 
of language preservation, culture appropriateness, attainment 
of education. And my work at San Diego State University, I work 
there half-time at the Center for American Indian 
Rehabilitation and Continuing Education at Interwork Institute 
at San Diego State University Aztecs.
    It is something that we experienced at San Diego State 
where we did a survey of students as well as faculty, and 95 
percent of the folks still wanted to keep Monty Montezuma as 
the mascot. Fortunately, President Weber decided on his own to 
go ahead and get the mascot out of there, because 5 percent was 
enough for him that were being insulted. So they did, but there 
is an unofficial mascot that has made its return, to the great 
happiness of our fans, which is unfortunate.
    I remember being at a football game at San Diego State as a 
spectator with my son, Ryan. He was about seven years old at 
the time. At the time, the Aztec mascot was still part of the 
university. He came running by in his outfit and blowing his 
conch shell. He goes, ``Dad, there is an Aztec.'' I said, ``No, 
son, that is a white guy doing a very bad job of imitating an 
Aztec.''
    [Laughter.]
    Mr. Warne. It was an interesting dichotomy, in that sense 
of sitting there, wanting to be a fan, but then explaining some 
of the cultural inappropriateness that comes with 
institutionalized racism. And that is what we are really 
discussing. When you look at the board here that I shared with 
the Committee, you can see that some of these things are quite 
ridiculous. How could they even be considered?
    Yet unfortunately, there is something that is true, we 
don't have to imagine this ridiculous perspective. I doubt that 
the Trademark and Patent Commission would even allow these 
mascots these days to be incorporated into organizations. To 
have the New York Jews or the San Francisco Chinamen, or the 
Cleveland Asians or Cleveland Hispanics, Cleveland Africans, is 
ridiculous. Yet Cleveland Indians is okay.
    And that is again, from my point, the three points that I 
think are why we are sitting here today, is education, the lack 
of education in our history. Our kids go to school and they cut 
out paper feathers and pilgrim hats and suddenly they have an 
Indian history. And the curriculum is something that needs to 
be changed. We need to say that we did not experience help when 
Columbus was lost in the Caribbean in 1492. As a result of his 
European contact, if you will, over 90 percent of us perished 
in a 400-year conflict. Over 90 percent of us perished as a 
result of Columbus arriving in the Caribbean at the time.
    And of course, with the Thanksgiving issue, and that is 
primarily what our curriculum for our young kids is, how 
Indians and Pilgrims lived together in harmony. That is 
obviously the initial part of the story. But they do not get 
into the comparative analysis of colonialism, which is what we 
prefer in this Country, as compared to other examples of 
holocaust and genocide. When you think of the numbers that 
happened here in America, it is indeed a great genocidal effort 
that happened.
    But 10 percent of us survived at the time in 1890, when my 
people decided to stop fighting the U.S. troops after the 
Wounded Knee Massacre. Every year, I go home for sun dance. I 
will be back there in summer solstice. My son is with me. He is 
growing up in urban San Diego, and his mom has Irish-German 
heritage, and he does not look Indian, if you will, as we have 
been saying, you don't look Indian, right?
    But it is an interesting experience for him, because his 
peers and his teachers are free to think, share their 
perspectives of Indian people. Fortunately, his Lakota heart is 
strong and he challenges them. In fact, he has gotten in 
trouble for challenging his teachers, and I have had to make my 
appearance at that point with administration.
    [Laughter.]
    Mr. Warne. So some of these things, with the education, it 
is just so limited that people think it is appropriate to have 
this symbol, compared with all these other symbols. The only 
thing I can see is they are all similar and they must have the 
same dentist in these pictures.
    [Laughter.]
    Mr. Warne. They are all characters that are negative. 
Media, I have been fortunate to act in a few movies, I don't 
really consider myself an actor, and I am in movies. That is 
when they need a big Indian, they give me a call.
    [Laughter.]
    Mr. Warne. The reality of my portrayals, I have never been 
asked to audition as a professor at the university, an 
educator, an administrator, doctor, lawyer. What do you think 
my roles are that I audition for? It is the big bad guy. One of 
my roles was literally big Indian, they didn't even bother to 
give me a name.
    So again, that is some of the media misrepresentation. And 
of course, people ask, why do you do those roles? Because I 
would never have acted and gotten an opportunity to infiltrate 
the Hollywood system, is what I say, so the next generation of 
actors will have a better experience than I did in terms of 
those stereotypes.
    I was in one movie audition, and the producer and the star 
of the movie came up to me, we were at Sony Studios and we were 
doing a full cast read of the movie. And he came up to me prior 
to us reading and he said, ``I need you to sound more 
foreign.'' I go, ``Foreign? What do you mean?'' And he goes, 
well, and I go, ``You mean stereotyped Hollywood Indian.'' And 
he kind of took a step back, and I just realized I lost that 
role. They did change the role, they did get another person to 
be more appropriate in their eyes from an American standpoint 
that we got our stereotyped Indian back.
    Actually, I have the original script. The writers did 
something amazing, in my perspective, is that they made the 
Indian character articulate, and that he was supposed to be 
doing sports commentary with an ESPN person, and that is 
something I have always wanted to do on the side anyway, is be 
part of the sports network and be articulate. Of course, the 
thought would be, oh, here comes another stoic Indian. And then 
I would break out. I did my audition with that, but the 
producer and the star decided, no, I don't like that, I want 
the stereotyped Indian. Unfortunately, that happened.
    There are so many issues in Indian Country. I know you have 
been on other committees with Indian issues, lack of education, 
disability rates that we face, mortality and suicide rates, and 
the dropout rates that we have in our education system. I 
remember being a young college student at Arizona student 
university and I would go with another Indian guy to some of 
the Indian meetings. There would just be a few of us.
    At the time, I would like to acknowledge our Indian women, 
because they have been more prevalent and more represented in 
our education systems. At the time, it was me and another 
Indian guy and a bunch of Indian women. I was a single guy, so 
that was okay.
    But at the same time, I was going, where are my Indian 
brothers? Where are my warrior society brothers, out here 
playing football or sports? They weren't there, because they 
weren't getting through the education system. Our dropout rates 
are disgusting, when you think of that.
    And I agree in terms of, my frustration is that my son 
faces and I face and many other Indian people, we are sitting 
there in a classroom and they are telling us what it is to be 
Indian. As they say, you don't look Indian. You don't look like 
we prefer you to look. That is something that, of course, the 
Indian with the feather and the buckskins and all that. It is 
something that has been very challenging.
    Civil rights was resisted as well back in 1964. Other 
issues in human decency and respect have been resisted in 
American history. There will be resistance to this, as we have 
faced for many, many years. And now the opportunity that this 
Committee has is you can influence your peers. I think that is 
what we really need, is peer support. As Indian people, we have 
been doing it for years. Obviously it has not worked. We have 
done some, as the Committee members, we have had a long fight. 
I was part of that in terms of they started this fight when I 
was still playing against the Florida State Seminoles and 
everything else.
    But we need to know sovereignty. We need more education. We 
need to know that media does not portray us accurately. There 
has been other media changes, as you see in my written 
testimony. I added some pictures of old advertising that were 
insulting to Asian Americans, African Americans, Hispanic and 
Latino Americans. Again, this is something we can imagine. 
Could you imagine other teams doing that?
    I assure you that if another team did that and had that as 
their mascot, you could do a survey and find individuals from 
their culture that would say, I am okay with it. That is what 
they are doing, is a few people from Indian Country are okay 
with the mascots. Many of us aren't. What is the number that it 
takes to indeed make that change?
    In closing, I just want to quote somebody. I find this 
interesting that we celebrate this holiday every year of being 
discovered. I would venture to say that I am the first Oglala 
Lakota tribal member that is a member of the NFL alumni that 
has been in this room. So I have therefore discovered you. You 
don't have to give me a holiday. But that is the reality. My 
brother is the first Oglala Lakota to graduate from Stanford 
Medical School. So he has discovered Stanford Medical School.
    So in conclusion: ``They willingly traded everything they 
owned. They were well-built with good bodies and handsome 
features. They do not bear arms and do not know them. They 
would make fine servants. With 50 men, we could subjugate all 
of them and make them do whatever we want.'' That is Columbus' 
first log. That is the way we started with European American 
contact. Here we are today, discussing these issues, when other 
cultures in the United States that have come over have gotten 
this respect. We ask for that equality.
    I don't see anybody from other communities protesting that 
they are not mascots. Why don't we have the Blackskins, 
Whiteskins, Brownskins, and Yellowskins included? I daresay 
that none of them want to be a mascot.
    So thank you again for bringing this to light. Hopefully we 
will see some change as a result of these efforts. Thank you 
for your time.
    [The prepared statement of Mr. Warne follows:]

    Prepared Statement of Jim E. Warne, President, Warrior Society 
                              Development

Introduction
    Good morning Chairman Akaka and distinguished Committee Members;
    It is an honor to be invited to provide testimony before the Senate 
Committee on Indian Affairs. I am Jim E Warne, member of the Oglala 
Lakota Nation of the Pine Ridge Reservation, South Dakota. I am 
president of Warrior Society Development, former professional National 
Football League Player, Actor, Educator at San Diego State University, 
and Ph.D. Candidate of University of Northern Colorado. I am also a 
life-long supporter of organized sports from youth sports leagues, 
collegiate athletics, and professional organizations. During the 
summers, through my company, Warrior Society Development, LLC, I 
provide a sports education to children of different Tribal Nations 
providing athletic activities integrated with cultural and traditional 
values.
    I am a proud Oglala Lakota Tribal member and I am a proud American 
citizen with some Euro-American ancestry. I am a member of the 
Consortia of Administrators for Native American Rehabilitation. I am 
the Director of the Center of American Indian Rehabilitation and 
Education (CAIRE) at San Diego State University Interwork Institute. I 
coordinate the Post Employment Training American Indian Rehabilitation 
Post-graduate certificate program under CAIRE.
    Thank you for the invitation to present at this important hearing 
regarding ``Stolen Identities: The impact of Racist Stereotypes on 
Indigenous People''. I want to share my perspectives and experiences as 
a retired professional football player, actor, educator and advocate 
for Indian issues and disability awareness.
    Testimony for U.S. Senate Committee on Indian Affairs Oversight 
Hearing on ``the impact of Racist Stereotypes on Indigenous People'' is 
only one of the many pressing and challenging issues facing American 
Indians and Alaska Natives. My wife, Jill Sherman-Warne is a member of 
the Hoopa tribe and former elected leader of the Hoopa tribe often 
expressed frustration about the Mascot issue, seeing it as a 
distraction from the pressing issues of everyday reservation life where 
the struggle to meet basic needs like sanitary housing, potable water, 
access to health care and adequate food are deemed basic priorities to 
be considered before intellectual discussion of mascots.
    While I believe it is important to address the racist stereotypes, 
I do acknowledge that there are so many important and pressing issues 
facing Indian country including: attacks on Tribal Sovereignty, cuts to 
the already meager funding of Indian Health Services, Indian Education 
(opportunities for Indian to receive an education), growing 
environmental justices issues, increasing rates of disability, 
mortality and suicide followed by the continuation of higher 
unemployment rates than another minority group. The Economic Policy 
Institute in its December 2009 issue brief acknowledge that Indian 
experienced double digit unemployment rates for most or all of 2009. 
Indian people and Tribal Nations continue be the lowest socio-economic 
population in the US. Some will quickly refute this idea by pointing to 
the success of Indian gaming; however, those tribes experiencing 
significant financial success number less than 25 tribes impacting less 
than 50,000 tribal people nationwide.
    My people, the Oglala Lakota Nation on the Pine Ridge reservation 
located in Shannon County, is one of the most economically depressed 
counties in the nation, and five of the top ten poorest counties in the 
country correspond to reservations in South Dakota.
    Each of these issues deserves its own hearing to ensure that the 
issues are adequately addressed followed by major budgetary and funding 
considerations. I urge the committee reflect on the need to address 
these other pressing issues that challenge Indian Country.
    From my perspective, there are multiple obstacles to eliminating 
the racist stereotypes in the US as it relates to Indian people. These 
include inaccurate and incomplete history classes in American schools, 
a long history of accepted use of inappropriate Indian imagery in the 
American mainstream media, lower socio economic status of American 
Indians and subsequent lack of political power and representation, and 
a general lack of respect for Tribal Sovereignty. Today I will focus on 
educational and media issues.

Education--Improve History Classes in American Schools
    The American educational curriculum typically does not adequately 
address Indian history, if it did, we would not be here today 
addressing this issue. History is taught from the White perspective. 
For example, we often hear that Columbus ``discovered America'' 
indicating that the millions of indigenous people already here are 
somehow less than human. In recognizing and honoring Columbus, do we 
bother to even acknowledge the thousands of people he enslaved, 
tortured and killed? Do we learn about the significant contributions 
made by American Indians to this nation? For example, how many people 
are aware that the U.S. Constitution is based on the organization of 
the Iroquois Confederacy?
    I raised my son, Ryan, to respect the traditional values of the 
Lakota way. Ryan's educational experiences have not always been 
positive. On occasion he has had to challenge his peers and his 
teachers regarding inappropriate views and instruction on Indians. A 
few times, his teachers have punished Ryan because he would provide the 
Indian perspective to the American historical perspective being taught.
    In our schools, Indians are more often thought of as ``Braves'' or 
``Redskins'' or ``Savages'', and non-Indians dress up in their version 
of a stereotyped Indian to support school sports. In this setting, 
wearing feathers, war paint and doing the ``tomahawk chop'' is 
offensive and reinforces racism and stereotyping of our people. If the 
Atlanta Braves were the Atlanta Slaves, and the White fans wore shoe 
polish on their faces and did the ``Spear Chuck'' it would be seen as 
terribly offensive. However, this society allows for mockery of our 
culture and continued degradation of our people and traditions. This 
occurs in professional sports and in our public schools.
    If the educational curriculum was truthful and sufficient to 
educate the next generations of citizens, they themselves would have 
realized that these images are racist and do not belong in our American 
culture.
    Today's average U.S. education about Indians is reduced to cutting 
out construction paper feathers, coloring book tepees and tomahawks, 
and Pilgrim hats for Thanksgiving. We celebrate Thanksgiving and teach 
our kids that Indians and Euro-American settlers lived in harmony and 
shared dinners together--this is considered Indian history in our 
school systems!
    Most Americans do not even know about the recognized holiday the 
Friday after thanksgiving. I appreciate that Congress finally decided 
to recognize Native American Heritage Day, yet the US population is 
unaware of this holiday as it was placed the day after Thanksgiving so 
that an additional federal holiday was not to be enacted. Most 
Americans are not are aware of this holiday that honors Indian people, 
yet they are probably aware of Martin Luther King day, Cesar Chavez Day 
in California and other holidays that honor certain populations.
    If the American educational curriculum provided accurate 
information on Tribal sovereignty, the conflicts and massacres, the 
breach of contract (treaties) and a comparative analysis of 
Colonialism-Holocaust-Genocide, we probably would not have to be here 
discussing racist American Indian stereotypes. If there was a stronger 
focus on Indian and Tribal perspectives and not just that of the 
conquerors, awareness would improve and the racist use of Indian 
imagery would not be tolerated.
    The use of Indian imagery in mascots promotes socially accepted 
racism and stereotypes.
    Many schools and universities are using Indian Mascots. For some, a 
school mascot may be the only education they receive about Indian 
culture and history. San Diego State University had the Monty Montezuma 
mascot, and the issue was addressed. 95 percent of the students and 
faculty that participated in the survey indicated that they still 
wanted the mascot that offends. SDSU is exempt from NCCA sanctions 
(i.e. Sweet Sixteen for the men's basketball this year), as the Aztec 
Tribe has no federal or state recognition in the U.S.
    My son Ryan and I were at an SDSU Aztecs football game and the 
mascot walked by and Ryan, who was 7 at the time, said, ``Hey dad, 
there is an Aztec!'' I indicated that it was a ``White guy doing a very 
bad imitation of an Aztec!''
    Shortly after this incident, I was proud that SDSU President, Dr. 
Stephen Weber, made the decision to no longer sanction the Monty 
Montezuma mascot as a result of the 5 percent of students and faculty 
that indicated it was inappropriate imagery of the Aztec culture. SDSU 
faced a lot of resistance to the change, but SDSU administration made 
this decision and supported the NCAA policy regarding the ban on the 
use of negative cultural imagery.

Media--Recognizing the Continued Use of Stereotypes
    I have been fortunate to pursue my dreams of professional football, 
acting and higher education. My experience in Hollywood film and 
television has been interesting. I have a particular look and physical 
size that impacts the roles that I can play. Do you think I get to 
audition for a character of a doctor, lawyer, educator or ``good guy?'' 
No. My roles have included Bull (a Seminole contracted killer), 
henchmen, bodyguard and one role was literally ``big Indian'' with no 
other reference.

Hollywood and Television
    There are many examples of film and TV show that have portrayed 
Indian people in a stereotypical way. I was auditioning for a role and 
the star and producer can up to me at Sony Studios during the full cast 
script read and he said that he ``wanted me to sound more foreign''. I 
indicated that he wanted the ``stereotype Hollywood Indian''. I did not 
get the part. The script was changed to portray the stereotype Indian 
that he preferred.

Media and Advertising
    The need for respecting other cultures has been recognized, and 
inappropriate imagery has been removed from many organizations, 
institutions and advertising (i.e. Pickaninny, black face, yellow face, 
Sambo, Lazy Peon, Pillsbury Funny Face drink mix and more recently the 
Wong Brothers advertising campaign by Abercrombie and Fitch).
    America's awareness and consciousness of other cultures 
inappropriate imagery is proven, yet, American Indian inappropriate 
imagery continues, why?
    Unfortunately, we can imagine these images, and indeed have to 
experience these types of images, as it is present today for Indian 
Country.
    As American Indians, we are simply asking for the same respect that 
has been shown to other cultures whose imagery was inappropriately 
used.

Conclusion
    They willingly traded everything they owned . . . They were well 
built, with good bodies and handsome features . . . They do not bear 
arms, and do not know them . . . They would make fine servants . . . 
With fifty men we could subjugate them all and make them do whatever we 
want.
              (Columbus' log on first contact in the ``Indies'' 1492) 
        (Zinn 1995).

    Chairman Akaka and Members of this Committee, thank you again for 
the opportunity to highlight for you some of the mascot and media 
imagery issues we face in Indian Country. I hope you will agree with me 
that this form of racism has no place in modern American society.
    When appropriate, I am happy to answer any questions you may have.

        **The pictures and attachments to Mr. Warne's statement have 
        been retained in Committee files.**

    Senator Udall. Thank you very much for your testimony.
    Dr. Fryberg, really for the whole panel, but Dr. Fryberg, 
we will start with you. You heard the first panel testify here, 
and many questions were raised and issues came out. I just 
wonder if you have any thoughts on what you heard there, and 
then maybe I will follow up with a couple of questions.
    Ms. Fryberg. Could you be more specific?
    Senator Udall. Specifically with your testimony, you 
focused on the negative consequences of race relations and 
stereotyping and the impacts it would have. You heard Charlene 
Teters talk about going to school at a Big 10 university and 
she had her children with her and the impact there. That is 
something that is obviously reproduced on a regular basis at 
many of our colleges and universities around the Country.
    Could you get into that a little bit more?
    Ms. Fryberg. The research really supports the view that 
Charlene is making. I think her work is very much a part of 
what has inspired the research that has been done. Even in 
studies where attempts have been made to control for different 
types of biases of experimenter, you really find consistently 
across studies a variety of negative psychological 
consequences.
    I really see the research as merely something that can be 
used as a tool to really support and give evidence, though not 
to overshadow their individual voices. I think they are very 
important voices, and certainly as someone who has benefitted 
from being one generation behind many of these distinguished 
guests, I am in great respect and appreciation of their time 
and efforts.
    Senator Udall. You talked a lot about research, research 
that had been done on this issue. Where is it being done and 
how are we better able to bring that out and bring it to light 
and get it to be better known in our society as a whole?
    Ms. Fryberg. One thing I would like to say is, I think part 
of the importance in what the research shows is a need to make 
the educational environments better for Native children, more 
identity-safe for Native children. I think once we get there, 
we will actually have more researchers and professors and 
people who can do more of this research. We are seeing most of 
the research coming out of universities that are in States that 
have higher proportions of American Indians, at universities 
that have mascots. Much of the work I have done has not been in 
those locations, well, actually that is not true. Definitely in 
States with higher populations, but not where there have been 
Native mascots. Which is important, because it actually means 
that it extends beyond those universities, in effect.
    Senator Udall. That is good. Thank you.
    Mr. Spencer, congratulations on being a part of these very 
successful Twilight films.
    Mr. Spencer. Thank you.
    Senator Udall. What advice would you give to Native youth 
and artists who want to redefine how Natives are portrayed in 
the movie industry? Should they go under directing, acting? 
What is the potential there?
    Mr. Spencer. It has been my experience that you have to do 
it yourself. Hollywood has a lot of closed doors. It is like 
what Jim said, I have gone through the same experiences as he 
has. The auditioning process, there is a stereotype in 
Hollywood. For me to give a young Native actor or actress 
advice would be, when I was coming up, I had to take a few 
roles where it was just very stereotyped. And I was told by a 
director to speak more savage. I needed the job, and I needed 
the money. So I had to do it or else they were just going to 
get some other guy, there is another guy in the back corner 
waiting to come in.
    So I made a point right then and there to really try to 
work on my craft as an actor, to be really good at what I do, 
so that I am able, if I go up against a role that is just open 
to any ethnicity or open to anybody that I would be able to do 
that through what I have learned through my craft as an actor. 
But when I started Urban Dreams with my production partners, it 
is basically to find vehicles for me that I am not playing 
Native, number one, or Indian guy. I could play anything, a 
lawyer, doctor, athlete.
    But yes, it is hard work, and one thing about Twilight is 
that it has opened a lot of doors for me. I am able to audition 
and be seen for other roles besides Native American roles, 
which I am very thankful for. The people before me, the Graham 
Greenes, Jim here, Rodney Grants, they had to struggle. It has 
been almost 25 years since Dances with Wolves came out. And we 
have a term called, some say like B.C., before Christ, we have 
Before Costner.
    [Laughter.]
    Mr. Spencer. What he did with Dances with Wolves was give a 
pride, a pride. I remember seeing it, and the only Natives I 
knew were like Burt Lancaster and Paul Newman on the big 
screen. And it was when Dances with Wolves came out I thought 
maybe I could do this as a job. And you could see throughout 
the history, we have Smoke Signals, Adam Beach and Irene 
Bedard, and finally New Moon, where it is really, with 
Twilight, we just happen to be Native and it is cool. Because 
it is a fantasy film that doesn't really throw us into 
stereotype. It is just, we just happen to be this group of 
people. And it doesn't go too much into our background and make 
the leather and feather thing of what usually Hollywood does. 
So I am very grateful for that.
    But it is hard work, and for the next actors up and coming 
I would suggest, it is almost that you have to do it yourself, 
because no one is going to give it to you. But it is hard work.
    Senator Udall. Mr. Warne, Jim, you brought your sense of 
humor to this, as Mr. Spencer has. I wonder if you have any 
thoughts of humor breaking down some of the barriers and how 
you have utilized that in terms of your pushing forward and 
standing up for what you really believe in?
    Mr. Warne. Well, Indian humor is something that we are well 
aware of in Indian Country. We utilize that laughter, and many 
times we have to laugh, because the alternative is just pain.
    Again, I think the key issue is to allow the non-Indian 
people to self-actualize the ignorance that they have been 
going through. It is just an amazing reality that the majority 
of American people think, why are you doing this? There is so 
many other things in Indian Country which I fully believe in. 
My wife is Hoopa from Northern California, and she was on her 
tribal council. And she was really working and advocating for 
Indian Country. And again, the mascot issue was down the line, 
because there were survival issues of getting potable water, 
housing, elders' access to their homes and everything else, 
disability rates that are rampant, diabetes has gotten so many 
of our communities.
    All these things are there, so I see that the intellectual 
elements of this issue of institutional racism may be seen from 
some people that are just surviving on the reservation as 
something on the back burner. Because they are not sitting in 
the stands, looking at the non-Indian people dressed up and 
mostly inebriated, and unfortunately they are holding the hands 
of their children. And those kids, the next generation, are 
learning that oh, this is okay, to mock Indian people.
    And when I have learned that we should not mock people, but 
fortunately, in an athletic environment, I can mock Indian 
people. And the reality of using humor from Indian Country, 
again, is a way I think also to try to make it how ridiculous 
it truly is that we are dealing with this in 2011. It is 
amazing to me as an elder in training that our elders that have 
led us, our traditional educators, our wisdom keepers, have 
been utilized and mis-used in so many ways, in media and 
imagery and mascots is part of that.
    I will admit, when I was playing at Arizona State, I 
thought it was cool when the guy ran out with the Seminoles on 
his horse and threw the burning spear down. And of course, I 
would never have a burning spear, and he was in the wrong 
outfit as well. But there are so many things . And then I saw 
him and I go, wait a second, that is a white guy. And I was 
going, boy, oh, well, and unfortunately we didn't beat them. I 
wish we did.
    But the reality is that these mascots and this imagery 
allows for ignorance in American society. Again, we must 
educate and truly address the issues that happen here in 
America once Columbus arrived, and then of course the 400 years 
of conflict and the past 100 years of assimilation attempts. We 
are not going to assimilate. Some of us have. But many of us, 
and I believe the next generation, will not.
    We are asking for your support to influence your peers, the 
voting public, to hopefully see us in a different light, but 
more important, see that this is inappropriate and that we 
would never allow this with other cultures. And the seventh 
generation is here, Black Elk after the Wounded Knee Massacre 
said it would take seven generations to heal the circle. And 
those are the youth of today. They are going to be great 
leaders some day. I am a firm believer that one of those from 
that generation will be President of this United States. That 
is my dream.
    Thank you.
    Senator Udall. Thank you. I think that is a very 
appropriate way to close. I want to very sincerely thank all of 
our panelists today. I notice all the first panel is still 
here. I would just say to all of you, I think you have done a 
tremendous amount of good today in the testimony that you put 
forward. It was thoughtful, sincere, very powerful testimony.
    I hope that what will come from this, as we have talked 
about at the beginning of this hearing and many of you have 
talked about in your testimony, is that we all have a 
commitment to do away with these kinds of derogatory 
stereotypes.
    Thank you very much, and the hearing is adjourned.
    [Whereupon, at 3:50 p.m., the Committee was adjourned.]


                            A P P E N D I X

   Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator, 
      Retired; Former Chairman, Senate Committee on Indian Affairs
    Chairman Akaka:

    I want to thank you and Vice Chairman Barrasso for the opportunity 
to share my thoughts today with the Committee.
    As you may be aware, in 1993, the Washington, DC professional 
football team, nicknamed the ``Redskins'' was seeking a new stadium to 
replace RFK Stadium. At that time, I introduced legislation to allow 
the District of Columbia to construct a new football stadium at the end 
of East Capitol Street. However, the bill also ensured that the new 
facility would not be used to demean any racial group by prohibiting 
the use of the new stadium by any person or organization exploiting any 
racial or ethnic group or using nomenclature that included a reference 
to real or alleged physical characteristics of Native Americans or any 
other group of human beings. I received a call from the Redskin's owner 
at that time, Mr. Jack Kent Cooke. Mr. Cooke pointed out to me that 
changing the mascot would be very costly, and besides, polling data at 
that time found that over 80 percent of Redskins fans liked the 
nickname. I pointed out to Mr. Cooke that if you commissioned a poll in 
1900 asking if people approved of giving women the right to vote, the 
vast majority would have said ``no'', but that didn't make it right. Of 
course the Redskins kept their notorious moniker and simply built their 
stadium in Landover, MD.
    Redskin fans were very angry about my desire to pressure their team 
into changing its mascot name, citing that it was not meant to be 
derogatory, and that the team and their fans were respectful toward the 
image of the team. However, it was not the imagery I was taken aback 
by. Redskin is a very demeaning term for Indians that hails back to the 
days when Indian people were hunted, and bounties paid for scalps, i.e. 
red-skins. Some argue that the reference was to the skin-color of 
Indian people. My skin is not red, and I don't know of any of my 
relatives who are. Can you imagine the outcry if the team had placed a 
proud, stately African American image on the side of their helmets, but 
then used a pejorative name such as the ``N'' word, or referenced his 
skin color. The imagery doesn't matter when the name is patently 
offensive. It should also be noted that Redskin founder, George Preston 
Marshall, was the last owner to allow his team to integrate, and that 
was not until the early 1960's when he traded for Bobby Mitchell, only 
after being pressured by the NFL to integrate. Bobby Mitchell famously 
tells the story that at his first public appearance as a Redskin, he 
was encouraged by Mr. Marshall to sing ``Dixie'' with him. You can draw 
your own conclusions as to whether George Preston Marshall was 
concerned if the team name he chose was derogatory. Thankfully, my dear 
friend and fellow Cheyenne, Suzan Harjo of the Morningstar Foundation, 
continues to fight this fight with the support of the National Congress 
of American Indians and many in Indian Country.
    As an American Indian, I am disturbed that individuals, 
organizations, and groups continue to use terms and slogans that are 
disparaging and disrespectful to racial and ethnic groups. Although 
Native American people represent one of the smallest population groups, 
they seem to be disproportionately singled out when it comes to being 
caricatured as sports mascots. It is unfortunate, because as you and 
the Members of this Committee well know, the contributions Indian 
people have made to this country's rich history have been significant.
    From the Navajo code-talkers of World War II to the ongoing war in 
Afghanistan, Native American men and women have served their country 
with distinction, in higher numbers per capita, than any ethnic group 
in America. Many of the foods we eat and medicines we use today have 
their origins in American Indian culture. In fact, the form of 
government, practiced within these very walls is rooted in the 
governmental practices of the Iroquois Confederacy. Yet, little respect 
is accorded Indian people in the name of ``team spirit''.
    Mr. Chairman, a few years ago I recall a similar situation that 
involved the Atlanta Braves baseball organization, when many people in 
the Indian community were offended, not only by the name ``Braves'' but 
also by the so-called tomahawk-chop cheer. Although the Braves 
organization asserted the name and chants used during the games were in 
recognition of the power, strength, and reverence of Indian warriors, 
and intended to pay respect, not disparage Indian people; I will tell 
you that these practices are not only offensive to Indian people, but 
even if their intent is innocent, they perpetuate the stereotype that 
society has of Indian people.
    I would like to see more pro-active steps taken to stop 
stereotyping. For instance, during the 102nd Congress, Congress enacted 
the Treasury Appropriations bill of 1993 with a provision that 
prohibited the Bureau of Alcohol, Tobacco, and Firearms from 
appropriating any funds to approve any application for a certificate of 
label approval that authorizes the use of the name ``Crazy Horse'' on 
any distilled spirit, wine, or malt beverage product. Using the memory 
of Chief Crazy Horse, a revered leader of the Lakota people, to sell 
and market alcoholic beverages was appalling and insulting to the 
generations of Native Americans who have suffered from the ravages of 
alcohol abuse. That was a pro-active position on this issue. There are 
many more steps we can take to end destructive stereotyping.
    I sincerely appreciate the support Members of this Committee and 
others in Congress have demonstrated in recognizing the seriousness of 
actions taken that disparage Native American people. I would like to 
commend those dedicated individuals whose efforts have fostered 
positive debate and understanding. Times are changing and many 
individuals and groups are becoming aware of the delicate nature of the 
use such terms and slogans.
    In my home State of Colorado, a principal at a Denver area high 
school took it upon himself to have the team mascot changed from the 
name ``Redskins'' to a more appropriate term, after recognizing the 
negative connotations of the term. I commended principal James Melhouse 
on the floor at that time for his courage and conviction. When you're 
in a position of authority, you sometimes have to make decisions that 
create a lot of animosity and anger. It takes great courage to make 
some of those decisions, as people take great offense when you want to 
change their traditions, especially at their alma-mater. In one 
southeastern Colorado town, not far from the site of the Sand Creek 
Massacre, where women, children and elderly Cheyennes were butchered by 
Colonel John Chivington and his regiment of Colorado Militia, there is 
a high school whose mascot is the `'Savages'', with accompanying Indian 
imagery. When it was suggested that they change their name, the 
students and alumni were incensed, the standard retort was that they 
were ``noble Savages''. Well, there is nothing noble about being a 
``Savage'' and if they want to call themselves that, I wish they would 
put a picture of Colonel Chivington on their uniforms, because my 
grandparents were not savages.
    As I said, societal norms are slowly changing all around this 
country. That doesn't mean we should not fight racism, intentional or 
not, to continue to improve the atmosphere for all people. I am happy 
to report that some folks don't need to be prodded, for instance: Use 
of the term ``Indians'' as a mascot may not be offensive to many, but 
still seems, at the very least, unnecessary. That was the same 
conclusion drawn by two colleges in my home state, Adams State College 
and Colorado State University at Pueblo, who changed their team names 
to the '`Grizzlies'' and '`Thunderwolves'' respectively. I'm a great 
believer in traditions, but believe me, there's a big difference in 
what a name means to Indian people and what it means to everyone else. 
I applaud those who are willing to make new traditions.
    I am aware that some schools and sports teams have taken the names 
of tribes as their official mascot. I do not see a problem with that as 
long as the entity in question has obtained written permission from the 
tribal leadership of the named tribe and uses respectful imagery. I 
have no desire to influence folks one way or another on those tribal 
decisions.
    I am not unsympathetic to those who note the high cost of marketing 
for new mascots, but often the price of doing what is right proves to 
be an investment in the future. I truly believe the good will generated 
will pay bigger dividends for teams over the long run, and true fans 
will gladly cloak themselves in the new regalia that celebrates a new 
age for their team.
    Mr. Chairman, I thank you for bringing attention to this important 
issue. I thank you for your many years of service to Indian Country. 
Most of all, I thank you for your friendship.
                                 ______
                                 
     Prepared Statement of Bonita Cleveland, Chair, Quileute Tribe

    Three weeks ago, this Committee held a hearing on Senator 
Cantwell's tsunami protection legislation, S. 636, to help save our 
children and elders. Since that time, there have been many media 
stories on the tsunami danger to our Tribe and the legislation. For the 
most part, the response to the legislation has been very positive, and 
the Tribe is very grateful for this support. Unfortunately, some of the 
on-line responses to the reports and editorials have reflected the 
worst of racist stereotyping, the subject of today's hearing. On behalf 
of my people, I want to express our sadness about this stereotyping, 
and we are very appreciative that Mr. Chaske Spencer would agree to 
submit the Tribe's statement for the record of the Committee's hearing.
    The Quileute Tribe first wants to congratulate Mr. Spencer on his 
dedication and perseverance to his craft as a Native American actor. 
His service to Native American communities through his United Global 
Shift philanthropic program has been significant and cherished by 
Native Americans. Mr. Spencer understands both the important and 
severity of today's hearing topic as an artist who is dedicated and 
determined to shift negative mindsets and stereotypes. Our Tribe 
commends Mr. Spencer on his artistic choices, and his continuing desire 
to create a positive impression of Native Americans in films and TV.
    From his starring roles in the ``Twilight'' movies, Mr. Spencer has 
become aware that the reality of the Quileute Tribe is far different 
from Hollywood's portrayal. The Quileute Tribe is enormously 
appreciative of Mr. Spencer's understanding of the real tsunami dangers 
faced by Quileute children and elders. We are also grateful for the 
many expressions of concern from ``Twilight'' fans for the real-world 
tsunami danger faced by the Quileute Tribe. While the Tribe has been 
appalled at some of the racist statements made regarding our people, we 
have faith that Mr. Spencer and Twilight fans will continue to fight 
against racism whenever it occurs.
    We are very proud that Mr. Spencer is appearing before the 
Committee as a strong voice against stereotypes. On behalf of the 
Quileute people, I say Wa-ta-lich-ta asoos ta. Wa-ta-lich-ta asoos ta. 
Wa-ta-lich-ta asoos ta. Translation: Thank you from the bottom of my 
heart.
                                 ______
                                 
    Prepared Statement of Angela Aleiss, Ph.D., Visiting Assistant 
  Professor at the University of California--Los Angeles; Professor, 
                California State University--Long Beach

    I am currently a Visiting Assistant Professor at the University of 
California, Los Angeles and also teach at California State University, 
Long Beach. I received my Ph.D. in film history from Columbia 
University and am the author of the book Making the White Man's Indian: 
Native Americans and Hollywood Movies (2005). In 1994, I was a 
Fulbright Scholar as a part of the Canada-U.S. Fulbright Exchange 
Program at the University of Toronto where I studied Native Canadian 
images in film.
    Chairman Akaka and Honorable Members of the Committee, I am honored 
to have received your invitation to submit testimony on this important 
issue. My focus will be specifically on a few topics that are often 
overlooked but nevertheless influence today's Native American images in 
motion pictures.
    One of the recurring and disturbing themes that I've noticed in my 
research is that Hollywood Westerns virtually dominate Native American 
images. That's not surprising given that Native Americans traditionally 
have been associated with the Western myth: from the Dime Novel tales 
and the paintings of Frederic Remington to the Wild West shows of 
Buffalo Bill Cody and the popular Western movie and TV series, Indians 
appear to be inextricably linked to a remote frontier era. Their 
portrayals have ranged from sympathetic to negative; nevertheless, 
Indians rarely appear in contemporary stories. If I may say so, the 
confinement of Native Americans to nostalgic Westerns is a bit like 
restricting African Americans to the ante-bellum days in the Old South. 
The practice ignores the fact that Indians are people here among the 
rest of us with individual identities and problems of their own.
    American audiences are partly to blame. Unfortunately, when non-
Western films with an Indian theme do appear, moviegoers show little 
interest. When I researched my book, I was amazed to discover that 
throughout Hollywood history, box-office grosses for Native American 
stories in non-Westerns were considerably lower than Westerns. As far 
back as 1930s, the unknown but compelling film Eskimo (the dialogue was 
in the Inuit language and subtitled in English) and the Pulitzer Prize-
winning story of Laughing Boy disappeared from screens after barely a 
week in movie theaters. Conversely, a few years later, The Plainsman, a 
rousing Cecil B. DeMille Western about the exploits of Buffalo Bill 
Cody and Wild Bill Hickok, followed by Stagecoach, Texas Rangers, and 
Union Pacific, drew enormous lines at box offices. As the Native 
American filmmaker Chris Eyre ( Smoke Signals, Skins, Edge of America ) 
once told me, the problem in Hollywood is that supply and demand 
dictate that Indians are romanticized and continue to be romanticized 
in the Western.
    The Westerns of today, although a far cry from the hostile warriors 
of The Plainsman, still dominate the Native American's image: Dances 
With Wolves earned a whopping domestic total gross of $184 million 
followed by Maverick's $102 million. But non-Western Indian-themed 
stories like Powwow Highway ($284,000), Thunderheart ($23 million), 
Smoke Signals ($7 million), Windtalkers ($41 million), The Education of 
Little Tree ($323,000), and Flags of Our Fathers ($34 million) continue 
to show that few Americans accept contemporary Indian life as 
entertainment. David Robb, former writer of minority and legal affairs 
for the Hollywood Reporter, believes that this pattern affects not only 
our perceptions of Native Americans but Indians themselves: ``It 
relegates Indian people to a distinct past. It stigmatizes Indian 
people and makes them non-existent today.''
    That brings me to my next point. The novels and movies of the 
popular Twilight series are set in contemporary society and feature 
Quileute Indians who can transform into wolves. Twilight's supernatural 
stories have earned tremendous revenues. Others have already pointed 
out that Twilight's Native Americans have significant roles in the 
series.
    But beyond Twilight's teen love triangle are a few disturbing 
traits of its Quileute characters. The theme of individual choice is 
essential to Twilight: the stories' vampire hero Edward consistently 
refers to his moral obligation to exercise individual choice. On the 
contrary, Twilight's Native Americans lack self control and the ability 
to choose: Edward's Quileute rival Jacob transforms into a wolf 
because, he says, ``I was born this way. It's not a lifestyle choice. I 
can't help it.'' (The Twilight Saga: New Moon) Furthermore, Jacob's 
last name is Black and in the novel New Moon, he is described as having 
russet skin and a quick, uncontrollable temper.
    Jacob's wolf traits can be dangerous. In New Moon, Jacob warns his 
human friend Bella that if he gets too upset, he will turn into a wolf 
and she might get hurt. Jacob's Quileute friend Sam Uley also has a 
capricious temper: in New Moon, Sam's fiancee Emily has three thick red 
lines on the right side of her face that ``extend all the way down her 
arm to the back of her right hand.'' Apparently, Sam lost control 
during one of his wolf transformation episodes and left deep scars on 
Emily.
    I doubt Twilight's author and filmmakers intended to invoke 
misleading stereotypes. But the references of ``dark'' to the Quileute, 
their impulsive and irrational nature, and their inclination toward 
violence are a reversion to the negative images we hope to eradicate. 
As a professor, scholar, and writer, I believe that cultural awareness 
and education will help curb these problematic representations.
    Thank you very much for the opportunity to present this testimony 
before the Senate panel.
                                 ______
                                 
Prepared Statement of David M. Gipp, President, United Tribes Technical 
                                College

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Harlyn Geronimo on Behalf of Geronimo, Historic 
           Apache Leader and His Surviving Lineal Descendants

    Whether it was intended only to name the military operation to kill 
or capture Osama Bin Laden or to give Osama Bin Laden himself the code 
name Geronimo, either was an outrageous insult and mistake. And it is 
clear from the military records released that the name Geronimo was 
used at times by military personnel involved for both the military 
operation and for Osama Bin Laden himself.
    Obviously to equate Geronimo with Osama Bin Laden is an 
unpardonable slander of Native America and its most famous leader in 
history.
    And to call the operation to kill or capture Osama Bin Laden by the 
name Geronimo is such a subversion of history that it also defames a 
great human spirit and Native American leader. For Geronimo himself was 
the focus of precisely such an operation by the U.S. military, an 
operation that assured Geronimo a lasting place in American and human 
history.
    The Encyclopedia Britannica (1967, Volume 10, page 362) has 
described the real Operation Geronimo in the following words:

        During this last campaign, which lasted 18 months, no fewer 
        than 5,000 troops and 500 Indian auxiliaries had been employed 
        in the apprehension of a band of Apaches comprising only 35 
        men, 8 boys and 101 women, who operated in two countries 
        without bases of supply. Army and civilian losses totaled 95; 
        Mexican losses were heavy, but unknown; Geronimo's losses were 
        13 killed, but none from direct U.S. Army action.

    Geronimo was not killed and was not captured. After the Chiricahua 
Band of Apaches were taken from reservations in Arizona Territory and 
New Mexico to Ft. Marion, Florida, Geronimo and his warriors saw no 
chance of reuniting with their people except by surrender with the 
promise that they would be reunited with their tribe.
    General Miles promised: ``There is plenty of timber, water, and 
grass in the land to which I will send you. You will live with your 
tribe and with your family. If you agree to this treaty you shall see 
your family within five days.'' None of the promises were kept.
    Nearly half the Chiricahua band, the band of Cochise, died in 
Florida and later in Alabama within several years before being moved to 
Ft. Sill, Oklahoma. Geronimo was held a prisoner of war for the 
remaining 23 years of his life, though he was a major attraction at the 
Louisiana Purchase Exposition in St. Louis in 1904 and was second only 
to President Elect Theodore Roosevelt in the applause received along 
the Inaugural Parade route of 1905.
    But Geronimo died a prisoner of war at Ft. Sill in February 1909. 
His bodily remains, if none were removed as has been alleged, are to 
this day in the Ft. Sill Apache Prisoner of War Cemetery despite his 
repeated requests to return to the headwaters of the Gila River in the 
Gila National Forest and within what was the first forest wilderness 
area designated in the U.S., in western New Mexico.
    As the son of a grandson of Geronimo, who as a U.S. soldier fought 
at Omaha Beach on D Day and across West Europe to the Rhine in World 
War II, and having myself served two tours of duty in Vietnam during 
that war, I must respectfully request from the President, our 
Commander-in-Chief, or his Secretary at the Department of Defense, a 
full explanation of how this disgraceful use of my great grandfather's 
name occurred, a full apology for the grievous insult after all that 
Native Americans have suffered and the expungement from all the records 
of the U.S. government this use of the name Geronimo. Leaving only for 
history the fact this insult to Native Americans occurred in all its 
pity.
                                 ______
                                 
       Prepared Statement of the Indigenous Peoples Working Group

    On behalf of members of the Indigenous Peoples Working Group, we 
thank the Committee for shining a spotlight on the crucial issue of the 
impact of racist stereotypes on Indigenous peoples by holding its 
important hearing earlier this month. The IPWG is a project of the 
Social Investment Forum and is comprised of various socially 
responsible investors. Further we work closely with members of the 
Interfaith Center on Corporate Responsibility that are concerned about 
these issues too.
    As investors, members of the IPWG have called upon partners and 
sponsors of the Washington National Football League (NFL) professional 
football organization, including the FedEx Corporation and Bank of 
America, to cease their support of the team's racist name. We would 
like the owners of the Washington professional football organization to 
cease using the team's disparaging name and to change it to something 
that does not offend any peoples. We are gravely concerned about their 
use, sponsorship and promotion of such an egregious affront to Native 
American nations and people.
    The Washington NFL franchise uses a name that is a racial slur and 
we understand that it traces its origin to colonial times when bloody 
skins of Native men, women and children were exchanged for bounty and 
traded like animal hides. The name was not a honorific then and it is 
not one now.
    All the major Native American organizations have called for the end 
of the modern commodification of their peoples and symbols in sports 
and in popular culture generally, and all have called for the name of 
the Washington team to be eliminated. The Glass Ceiling Commission's 
report by American Indian scholars, ``Barriers To Workplace Advancement 
Experienced by Native Americans,'' concluded that ``stereotypes and 
negative tags'' have a detrimental impact on American Indian people in 
the work environment.
    In 1992, seven prominent Native American people filed suit before 
the U.S. Patent and Trademark Office (USPTO), seeking cancellation of 
trademark protection licenses for the football team's name. In 1999, 
three judges of the USPTO issued a 145-page opinion that sided with the 
Native American plaintiffs and cancelled the trademark licenses. The 
trademark judges ruled that the Washington team's name is disparaging 
and holds Native Americans up to contempt and ill-repute.
    The seven plaintiffs wrote to the new owners of the NFL franchise, 
requesting a meeting, and thirteen national Native American 
organizations wrote to the NFL commissioner, imploring him to order a 
name change and to accept the ruling of the USPTO. Neither the owners 
nor the commissioner bothered to respond to the letters. Instead, the 
new owners appealed the USPTO decision, which the Native American 
plaintiffs and their pro bono attorneys were forced to defend for the 
next ten years. Their case ended when the U.S. Supreme Court declined 
to review a federal appellate ruling, not on the merits, but on the 
technicality of laches, which the trial court defined as the plaintiffs 
having waited too long after reaching their 18th birthdays to file 
their case.
    The USPTO, in 1994, had rejected all of the NFL franchise's 
affirmative defenses, including laches, because there is an overriding 
public policy issue at stake: whether the federal government should 
provide trademark benefits and protections that disparage Native 
Americans. The USPTO admitted it made a mistake in granting trademark 
licenses for the NFL team's name, but the Native American plaintiffs 
had to bear the burden of the federal government's mistakes in issuing 
licenses for racist material.
    In 2006, a second group of Native American people-young people 
between the ages of 18 and 24, who do not have a laches issue as 
defined by the federal courts-filed the identical legal action before 
the USPTO. Now, these young people and their pro bono counsel are 
seeking a decision on the merits of the case. We trust and hope that 
the USPTO will rule on their side.
    We are concerned that these young Native American people then would 
be burdened with protecting the USPTO's ruling in the federal courts. 
It is for this reason and for the broad goal of ending federal 
protections for anti-Indian racist stereotypes that members of the IPWG 
supports the legislation proposed by The Morning Star Institute to 
recognize the USPTO's errors in granting trademark licenses to the 
Washington football franchise, to uphold the USPTO's 1999 decision on 
the merits in Harjo et al v. Pro Football, Inc., and to cancel the 
existing trademark licenses.
    Members of the IPWG would be honored to work with the Committee to 
address this important issue. The Committee has the power to advance 
remedies to the violations of human, civil and international rights 
experienced by Native American peoples on a daily basis, so long as 
these discriminatory, racist slurs are tolerated, especially in the 
U.S. Capitol.
    Thank you for adding this statement to the hearing record.

    Attachment

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
Prepared Statement of Jesse A. Steinfeldt, Ph.D., Assistant Professor, 
 Counseling and Educational Psychology, Indiana University--Bloomington

    Thank you for the opportunity to share my perspectives and 
participate in these hearings. This is a very necessary area of 
inquiry, and I am pleased that the Senate Committee on Indian Affairs 
has taken the steps to engage in a discussion about this serious issue. 
The use of American Indian culture and imagery by sports teams (e.g., 
Indians, Redskins, Fighting Sioux) is a practice that has a 
longstanding history and tradition in our society. The omnipresence of 
these images gives members of mainstream society the misperception that 
this is an accepted practice that honors and respects the American 
Indian communities depicted. Subsequently, we need to provide 
opportunities for members of society to have an informed and civil 
dialogue about this harmful practice that is hegemonically woven into 
the fabric of society. In 2005, the American Psychological Association 
(APA) produced a resolution recommending the immediate retirement of 
American Indian mascots, symbols, images and personalities by schools, 
colleges, universities, athletic teams, and organizations (APA, 2005). 
To date, over 115 additional professional organizations (e.g., American 
Counseling Association, Society of Indian Psychologists, United States 
Commission on Civil Rights) have produced similar resolutions 
condemning this practice. Some of the prominent reasons cited by these 
resolutions are based on Native-themed mascots, nicknames, and logos: 
(a) misusing cultural practices and sacred spiritual symbols; (b) 
perpetuating stereotypes of American Indians (e.g., the noble savage; 
the bloodthirsty savage; a historic race that only exists in past-tense 
status; one singular pan-Indian culture); (c) denying American Indians 
control over societal definitions of themselves; (d) creating a 
racially hostile educational environment for all students; and (e) 
negatively impacting the psychological functioning of American Indians.
    My research and clinical experiences can provide support for all of 
these reasons, but I am in a unique position to testify about how this 
practice negatively impacts the psychological functioning of American 
Indians. I am a psychologist and an assistant professor of Counseling 
Psychology at Indiana University. Furthermore, I am a man of Oneida 
heritage, and I have conducted clinical work with American Indian 
populations at the Oneida Behavioral Health Center on the Oneida 
Reservation in Wisconsin. As such, I have heard first-hand the negative 
impact that these stereotypic images can have on the psychological 
functioning of American Indian patients. American Indian communities 
are disproportionately impacted by serious mental health issues (e.g., 
depression, anxiety, substance abuse, suicide), and a societal 
environment wherein American Indians are readily stereotyped and 
discriminated against contributes to the onset and entrenchment of 
these mental health issues. In addition to the misinformation and 
stereotypes produced by Native-themed mascots, nicknames, and logos, 
``an increase in accurate information about Native Americans is viewed 
as necessary for the achievement of other goals such as poverty 
reduction, educational advancements, and securing treaty rights'' (King 
et al., 2002, p. 392).
    In addition to providing psychological services to American Indian 
communities, I have conducted and published research that addresses the 
psychological implications of Native-themed mascots, nicknames, and 
logos (e.g., Redskins, Indians, Fighting Sioux ). Situated within an 
emerging body of empirical evidence that has empirically and 
consistently demonstrated the existence of stereotyping, 
discrimination, and harassment that accompanies Native-themed mascots, 
nicknames, and logos, my research (e.g., Steinfeldt, Foltz, Kaladow, 
Carlson, Pagano, Benson, & Steinfeldt, 2010; Steinfeldt, Foltz, 
LaFollette, White, Wong, & Steinfeldt, in press; Steinfeldt & Wong, 
2010) indicates that this practice perpetuates stereotypes and 
facilitates discrimination and racism against American Indians. In one 
study (Steinfeldt et al., 2010), my research team analyzed 1699 online 
forum comments, and we found that the majority of comments expressed 
negative attitudes toward American Indians. We coded the comments over 
a two year period, and our results indicated that these online forum 
comments were organized within the themes of: (a) surprise about how 
the nickname/logo could be construed as negative; (b) power and 
privilege exerted in defending the nickname/logo; (c) trivialization of 
issues salient to American Indians; and (d) denigration and 
vilification of American Indian communities. The results indicated that 
American Indians are subjected to not only continued societal ignorance 
and misinformation about their culture, but they are also being 
actively excluded from the process of prioritizing which issues they 
need to address. Results also indicated that a critical mass of online 
forum comments represented ignorance about American Indian culture and 
even disdain toward American Indians by providing misinformation, 
perpetuating stereotypes, and expressing overtly racist attitudes 
toward American Indians. While some online forum comments examined in 
the study contained the words honor and respect, the results indicated 
that the sentiment underlying and surrounding these comments did not 
reflect a genuine sense of honor or respect--instead, these comments 
expressed entitlement, privilege, power, and even subjugation and 
oppression.
    We interpreted these findings within the tenets of Two-Faced Racism 
theory (Picca & Feagin, 2007), an emerging conceptualization of 
contemporary racism in society. According to this framework, boundaries 
for the expression of racial attitudes exist within shifting social 
contexts. Subsequently, racial ideologies--particularly those about 
members outside of the dominant culture (e.g., American Indians)--
exist, but the expression of these ideologies take place in private 
(i.e., backstage) settings rather than public (i.e., frontstage) 
settings. Because public opinion has shifted to condemn blatant racist 
attitudes and behaviors in public settings (Picca & Feagin, 2007), 
explicit expressions of racist attitudes have begun to find a home in 
electronic communication formats (Bargh & McKenna, 2004; Melican & 
Dixon, 2008). As it relates to the findings of our study, the relative 
anonymity afforded to online forum participants provides the privacy 
experienced in traditional backstage settings. Expressing these ideas 
in contemporary backstage settings (e.g., weblogs, online forums) 
allows people to avoid the negative social consequences that these 
attitudes might receive in physical frontstage settings. For example, 
an online forum commenter might more readily call an American Indian a 
derogatory name in an online forum comment, but it is likely that (s)he 
might not say the same thing aloud at a social gathering for fear of 
social repercussions. Subsequently, due to the omnipresence and power 
of the internet, the presence of a Native-themed nickname and logo can 
facilitate the posting of virulent racist rhetoric in online forums. 
And because these types of racist messages are able to electronically 
spread out with greater ease to a larger audience, the daily ritual of 
reading the newspaper can subject an American Indian to content that 
can negatively impact his/her psychological well-being. Our study 
suggests that Native-themed nicknames and logos significantly 
contribute to this process by creating an environment wherein 
stereotypes and discrimination are allowed to flourish. We concluded 
that the presence of a Native-themed nickname and logo can threaten the 
psychological functioning of American Indians by providing 
misinformation, by activating stereotypic representations, and by 
facilitating the expression of discriminatory and explicitly racist 
attitudes toward American Indians.
    Along with this and other published studies of mine, there is an 
emerging body of psychological research that demonstrates the 
deleterious psychological ramifications of race-based mascotery (e.g., 
Fryberg, Markus, Oyserman, & Stone, 2008; Fryberg & Oyserman, 2011; 
Gonzalez, 2005; Kim-Prieto, Goldstein, Okazaki, & Kirschner, 2010; 
LaRocque, 2004; Steinfeldt et al., 2010; Steinfeldt et al., in press; 
Steinfeldt & Wong, 2010). To this point, it is important to note that 
there has not been any empirical evidence that refutes the findings of 
these stuies. Furthermore, there is empirical evidence (e.g., Fryberg & 
Oyserman, 2011) that suggests that White Americans experience 
psychological benefits to using race-based mascots, nicknames, and 
logos. Thus, while this practice has a negative impact on the 
psychological functioning of American Indians, the insidious nature of 
race-based mascots, nicknames, and logos is further evidenced by its 
ability to improve the psychological functioning of members of the 
dominant culture at the psychological expense of members of a 
marginalized group in society.
    In the absence of any credible scientific evidence, the arguments 
of history and tradition are not indefensible reasons to maintain a 
practice that inflicts harm on another group. Slavery was a 
longstanding tradition in our country. Not allowing women to vote was 
part of our history. And in regard to contentions that this practice 
`honors American Indians,' it is reasonable to ask: if honoring a group 
involves ignoring their pleas to stop doing so, then is this practice 
truly honorable? Furthermore, the omnipresence of these images does not 
justify their continued existence. These images are firmly entrenched 
into the natural order of society (Davis-Delano, 2007), and members of 
the dominant culture--particularly White Americans--are the most 
zealous defenders of this practice (Farnell, 2004). This ardent 
support, combined with the small population of American Indians (i.e., 
less than 2 percent of the U.S. population; U.S. Census Bureau, 2006) 
and the lack of resources available to American Indian communities 
(i.e., the rate of American Indians living below the poverty line is 
twice the rate found in the overall population; Merskin, 2001; National 
Center for Education Statistics, 2005), highlights how American Indians 
have lacked the power and privilege other minority groups have exerted 
in removing comparable racist stereotypes (e.g., Frito Bandito, Li'l 
Black Sambo; Steinfeldt, Hagen, & Steinfeldt, 2010; Westerman, 1989). 
Just because the Cleveland Indians' Chief Wahoo is seen frequently on 
ESPN doesn't make it right. Just because the Seminole Nation of Florida 
gave consent to Florida State University to use their name doesn't mean 
that all American Indians approve of it, let alone all Seminoles (the 
Seminole Nation of Oklahoma has produced a resolution against this 
practice). Having a cultural icon like Chris Berman provide colorful 
commentary on Washington's pro football team doesn't mean that such a 
hateful racial epitaph (i.e., Redskin) doesn't hurt people--rather, it 
means that the people using this hateful term have become desensitized 
to the fact that they are hurting people with their historical 
tradition of dishonor. Despite how members of mainstream society want 
to frame the issue, this is NOT an issue of mere sensitivity, 
offensiveness, or ``political correctness.'' Rather, this is an issue 
involving oppression, stereotyping, and inflicting psychological harm--
and it is important that societal dialogue about this issue is 
accurately framed in these terms so that we can have meaningful 
discussions about the nature of this practice.
    As a result, another reasonable question to ask is: in 30 or 40 
years from now, when we look back at our current period of history, how 
will people judge our society's continued engagement in this racist 
practice of appropriating another culture for use as sports mascots, 
nicknames, and logos? I imagine that people will look back at history 
books and think, ``Wow, they used to name their sports teams the 
Redskins? Ugghh, what was wrong with those people?'' Similarly, it 
seems so obviously objectionable when we use hindsight today to look 
back at other periods of our history. When I look back at the time in 
our society when Black people were not allowed to drink from the same 
drinking fountains as White people, it is easy for me to think, ``Wow, 
what was wrong with those people?'' However, it is important to 
understand that at the time, racial segregation (just like race-based 
mascots today) was a practice that was hegemonically woven into the 
fabric of society--it was seen by the majority of people as part of the 
normal order of society, and it took legislative efforts (e.g., Civil 
Rights Act) to accelerate the process of change. The reality is that, 
right now, WE are those people who will be judged by history for 
continuing to allow our sports teams to be named Redskins and Indians. 
Thus, legislation (such as the recently passed legislation--WI Act 25--
against race-based mascots, nicknames, and logos in Wisconsin) can be 
an important component of a multifaceted approach to encourage people 
to stop the practice of marginalizing and psychologically damaging 
another culture through the use of race-based mascots, nicknames, and 
logos. Doing so can hasten the process by which this contemporary 
practice becomes a historical footnote about stereotypes and civil 
rights violations, rather than an ongoing practice of stereotyping and 
violating the civil rights of a group of people. This can ensure that a 
harmful and outdated 20th century practice doesn't continue well into 
the 21st century. I trust that the Senate Committee on Indian Affairs 
will be able to use the testimony provided in these hearings to work 
toward positive societal change. Thank you for giving me the 
opportunity to share my perspectives with you today.
                                 ______
                                 
 Prepared Statement of Levi Pesata, President, Jicarilla Apache Nation

Introduction
    On behalf of the Jicarilla Apache Nation (``Nation''), I would like 
to thank this Committee for convening this hearing to gather testimony 
on the impact of racist stereotypes of indigenous people. The Nation is 
a federally recognized Indian tribe located in north-central New 
Mexico. Eighty-five percent of the tribal population lives on our 
Reservation in the town of Dulce, which serves as our tribal 
headquarters. The Nation has over four thousand (4,000) tribal members 
who are proud people with a rich history and culture. We are isolated 
in geography, and further isolated through cultural misunderstanding 
and racism.

Recent United States Military Operation
    Like the rest of the world, the people of the Jicarilla Apache 
Nation learned on May 1, 2011, that one of this country's greatest 
enemies, Osama Bin Laden, was captured and killed by United States Navy 
SEALS. Osama Bin Laden earned his spot on the Federal Bureau of 
Investigation's lists of the Ten Most Wanted Fugitives and Most Wanted 
Terrorists through his actions in founding al-Qaeda, organizing the 
devastating attacks on the United States on September 11, 2001, and 
having a hand on numerous other mass-casualty attacks against civilian 
and military targets. He has orchestrated the senseless killings of 
thousands of people. And the War on Terror, of which Osama Bin Laden 
has been the major target, has resulted in countless civilian deaths in 
several countries.
    The Nation commends President Barak Obama, the United States Navy 
SEALS, and the Central Intelligence Agency on the capture and killing 
of Osama Bin Laden. Ending Bin Laden's reign of terror is essential to 
winning the War on Terror, and the Jicarilla Apache Nation is elated 
and grateful that the United States' number one enemy has been 
neutralized.

Codename ``Geronimo ``
    The codename for the operation and, it appears, the codename for 
the most wanted man in the world, Osama Bin Laden, was ``Geronimo.'' As 
you may know. ``Geronimo'' is the name of a revered Chiricahua Apache 
leader who defended our Apache homelands from unlawful settlement by 
Mexican and, later, American settlers during the so-called Apache Wars. 
He defended our people with bravery and valor for years, before his 
eventual capture by the United States. Apparently, ``Geronimo'', was 
the first message sent when the United States Navy SEALS recognized 
Osama Bin Laden. CIA Director Leon Panetta relayed the message to the 
President, reporting: ``We have a visual on Geronimo.'' Once shot and 
killed, the code ``Geronimo--E KIA'' was sent, which triggered feelings 
of relief for those watching the raid alongside the President in the 
Situation Room. The E stood for ``enemy'' and ``KIA'' for ``killed in 
action.''
    It is terribly unfortunate that the name, ``Geronimo'' was the code 
name given by the United States to the Bin Laden operation and, 
apparently, to Bin Laden himself. This is not a criticism of the 
accomplishments of our service men and women, and the Obama 
Administration. Those accomplishments are extraordinary and their 
significance cannot possibly be diminished. But, the Jicarilla Apache 
Nation wants to take this opportunity to express the disappointment and 
hurt our people and other Apaches feel concerning the misuse of the 
name of one of our greatest Native American leaders.
    Native Americans, and indigenous people throughout the world, 
constantly battle static stereotypes defining us as ``savage,'' 
``bloodthirsty'' and ``uncivilized.'' Geronimo was none of these 
things. Nor was he a terrorist. He defended our Apache homelands from 
unlawful acquisition and theft in violation of treaty-based promises of 
protection. The United States has apologized to the Apache people and 
all other Native Americans for the ``long history of official 
depredations,'' sanctioned by the United States, regarding our Native 
nations. See, Native American Apology Resolution of 2009, Pub. L. 111-
118 (2009). Those depredations included the unlawful acquisition of 
recognized tribal land, the theft of tribal resources, and the failure 
by the United States to honor its treaties with our Native nations. 
See, Preamble to Native American Apology Resolution, S.J. Res. 14, 
111th Cong., 1st Sess. (2009). To have the United States directly link 
one of our leaders with a world-wide terrorist has a profound and 
detrimental impact upon the way the world perceives Native Americans, 
and also, how our own children perceive our communities. The killing of 
Osama Bin Laden will be embedded in history books, and an unnecessary 
link between terrorism and Native Americans will endure forever.
    This link is unjustified. For generations, native people have 
defended the interests of the United States, at home and abroad. The 
Preamble to the Native American Apology Resolution states that, 
``despite the wrongs committed against Native Peoples by the United 
States. Native Peoples have remained committed to the protection of 
this great land, as evidenced by the fact that, on a per capita basis, 
more Native Peoples have served in the United States Armed Forces and 
placed themselves in harm's way in defense of the United States in 
every major military conflict than any other ethnic group,'' See, S.J. 
Res. 14, 111th Cong., 1st Sess. (2009).
    Presidents George W. Bush and Barak Obama have recognized the 
service of our Native people to this country, including our service 
following the harrowing attacks of September 11, 2001. Just months 
after those attacks, President Bush issued a Presidential Proclamation 
in which he stated that:

        Almost half of America's Native American tribal leaders have 
        served in the United States Armed Forces, following in the 
        footsteps of their forebears who distinguished themselves 
        during the World Wars and the conflicts in Korea, Vietnam, and 
        the Persian Gulf. Their patriotism again appeared after the 
        September 11 attacks, as American Indian law enforcement 
        officers volunteered to serve in air marshal programs.

    Presidential Proclamation 7500 (Nov. 32, 2001). See also, 
Presidential Proclamation 7735 (Nov. 14, 2003) (recognizing the many 
thousands of Native Americans serving on active duty and as reservists 
in the U.S. Armed Forces). Similarly, in 2009, President Obama issued a 
Presidential Proclamation in which he recognized that, ``[f]rom the 
American Revolution to combat missions in Iraq and Afghanistan,'' 
Native Americans, ``have fought valiantly in defense of our Nation as 
dedicated servicemen and women.'' Presidential Proclamation 8449 (Oct. 
30, 2009).
    The National Congress of American Indians reports that 77 American 
Indians and Alaskan Natives have died defending the U.S. in Afghanistan 
and Iraq. More than 400 have been wounded.

Indian Country Outrage
    Steven Newcomb, a columnist for the weekly newspaper Indian Country 
Today, wrote ``[t]he death of bin Laden is arguably the most important 
news story of the year, and embedded within it is a message that an 
Indian warrior, a symbol of Native American survival in the face of 
racial annihilation, is associated with modern terrorism and the 
attacks on 9/11.'' The Onondaga Council of Chiefs agrees. In a 
statement released May 3, 2011, the Council said, ``Geronimo is 
arguably the most recognized Native American name in the world, and 
this comparison only serves to perpetuate negative stereotypes about 
our people.'' The misuse of Geronimo's name is yet another example of 
how Native American culture and history has been misappropriated by 
mainstream America and used disparagingly.
Steps Forward
    It is unclear if any action by the United States can undo the 
damage done by naming the operation and, apparently, Osama Bin Laden 
himself, ``Geronimo.'' The misuse of Geronimo's name has divided our 
people from mainstream America and detracted from our ability to 
celebrate this shining achievement by the Obama Administration with the 
rest of our fellow Americans. On behalf of the Nation, I sincerely hope 
that this misstep in history can be used as a stepping stone towards 
educating mainstream America and the world on another chapter in 
American history.
                                 ______
                                 
  Prepared Statement of Roberto Mukaro Agueibana Borrero, President, 
United Confederation of Taino People Office of International Relations 
                       and Regional Coordination

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Tina Marie Osceola, Historic Resources Officer, 
                       Seminole Tribe of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Joe Zeller, President, Indian Arts and Crafts 
                              Association

Introduction
    Good afternoon Chairman Akaka and Vice Chairman Barrasso. My name 
is Joe Zeller, and I am the President of the Indian Arts and Crafts 
Association (IACA) based in Albuquerque, New Mexico. I am an Ohio 
native having spent over 40 years with major multi-national advertising 
agencies developing advertising programs and directing media efforts of 
major corporations such as Kraft Foods, Procter & Gamble, Ford, and 
others. I have a bachelors degree in communication arts from the 
University of Notre Dame and a masters degree in radio and television 
from Ohio University. I am a founding member of the Amateur Hockey 
Association Illinois, served as the association president from 1979 
through 1981, and inducted into the Illinois Hockey Hall of Fame in 
2005. As an avid collector of American Indian art, I opened the doors 
to River Trading Post upon retiring from the advertising business in 
2000. I opened my first gallery in the Chicagoland area. In the 
following years, I opened River Trading Post galleries in Scottsdale, 
Arizona, and in Santa Fe. My galleries feature a blend of antique and 
contemporary Native American art from over 80 different tribal groups.
    On behalf of the Indian artists and craftsmen, wholesale, retail 
and collection members of the IACA, I thank you for the opportunity to 
submit testimony regarding the misrepresentation of American Indian art 
and crafts.

Background on the Indian Arts and Crafts Association
    Established in 1974, the IACA is a not-for-profit trade association 
whose mission is to support the effective protection, ethical promotion 
and preservation of American Indian arts and crafts. Headquartered in 
Albuquerque, NM, IACA was formed by American Indian artists and 
reputable businesses when imitation goods began flooding the 
marketplace. The founders of the IACA realized that by joining forces 
they could work more effectively to promote authenticity and find ways 
to educate the buyers and public about American Indian art.
    Today, IACA is a well-respected trade association which represents 
all facets of the American Indian arts and crafts industry--artists, 
retailers, wholesalers, cottage industry, museums, other related 
organizations and businesses (such as suppliers, educational 
institutions, book publishers, studio photographers), as well as 
collectors. IACA promotes ethical business standards within the Indian 
art market through education, publicity, authentication, and use of its 
logo to certify reputable businesses. As a member, each artist or 
business agrees to honestly and ethically represent their merchandise 
and to abide by all applicable state and Federal laws.
    Federal legal authority governing the industry and the labeling of 
authentic arts and crafts produced by Native Americans has helped 
maintain the integrity of our industry and we are proud that the State 
of New Mexico has enacted similar legislation to give further 
protections.

How Misrepresentation Harms Indian Artists and the Indian Art Market
    The arts and crafts industry is critical to American Indian 
economies and small businesses. Income from a single artist often 
provides the only income for their family and, more often than not, to 
an extended family. In addition to providing primary and supplemental 
income, the arts are a source of strength and pride, reinforcing our 
cultures and traditions within our communities.
    Misrepresentation is one of the biggest threats to the integrity of 
the American Indian art industry and its market. Not only does our 
industry have to compete with the larger, diluted market, but we must 
compete with those who copy and counterfeit the work of American Indian 
artists. According to the April 2011 report by the U.S. Government 
Accountability Office, while the actual size of the Indian arts and 
crafts market, and the extent of misrepresentation is unknown, the sale 
of goods falsely represented as authentic Indian-produced arts and 
crafts has been a persistent and potentially growing problem in the 
United States.\1\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, Indian Arts and Crafts: 
Size of Market and Extent of Misrepresentation Are Unknown, GAO-11-432 
(April 2011).
---------------------------------------------------------------------------
    In addition, according to a June 2005 report by the Inspector 
General for the U.S. Department of the Interior, the annual loss in 
revenues to Indian artisans as a result of counterfeit Indian arts and 
crafts is between $400 and $500 million or up to half of the total 
value of the Indian arts and crafts market.\2\ Similarly, consumers of 
Indian art suffer from misrepresentation by fraudulently being led to 
believe that imitation products purchased are authentic thereby 
resulting in financial loss and questions the value of authentic Indian 
arts and crafts.\3\
---------------------------------------------------------------------------
    \2\ U.S. Department of the Interior, Office of Inspector General, 
Indian Arts and Crafts: A Case of Misrepresentation, Rpt. No. E-EV-OSS-
0003-2005 (June 2005).
    \3\ GAO-11-432.
---------------------------------------------------------------------------
    Improvements in transportation and increased world trade together 
encourage a situation in which original Indian art is duplicated 
offshore for less cost and passed off as authentic. For example, 
dealers can send an original, Indian-made piece or a photograph to 
locations such as the Philippines or Thailand and have the pieces 
duplicated or mass-produced for a fraction of the cost of the original. 
The U.S. Customs Service and Border Patrol have estimated that an 
average of $30 million in Indian-style arts and crafts is imported 
annually from countries such as the countries above and Mexico, 
Pakistan, and China.\4\
---------------------------------------------------------------------------
    \4\ Rpt. No. E-EV-OSS-0003-2005.
---------------------------------------------------------------------------
    Reputable businesses and artists cannot compete with cheap imports, 
and the loss of revenue is putting the artists and small business 
owners out of business--out of their livelihood. Fakes and imports 
damage the overall image of American Indian arts, hurting not only the 
tribes, but also the nearby communities whose economies are dependent 
on Native arts. Along with the Downtown Business Association in Santa 
Fe, we have held Town Hall meetings on authenticity to help educate the 
retailers and customers about the laws and to encourage the support of 
authentic American Indian arts.
    As an industry, we fear that the continuing loss of integrity will 
ultimately result in the largescale demise of authentic, American 
Indian arts. We must enable and encourage the current and future 
generations to continue the arts but today, artists have found little 
recourse when their products are copied--and great frustration as they 
see imported items being misrepresented as American Indian handmade. 
Most importantly, Indian art is an expression of cultural pride and 
identity, so in addition to hurting the artists and reputable 
businesses, it damages the public by removing this educational 
connection and by the consumer unknowingly taking an imported item 
home.

The Indian Arts and Crafts Amendments Act of 2009 (P.L. 111-211)
    The IACA would like to thank the Committee for supporting the 
passage of the Indian Arts and Crafts Amendments Act of 2009 (P.L. 111-
211). This statute authorizes: (1) any Federal law enforcement officer 
to conduct an investigation of an offense involving the sale of any 
good that is misrepresented as an Indian produced good or product that 
occurs within the jurisdiction of the United States; and (2) authorizes 
the Indian Arts and Crafts Board (Board) to refer such an alleged 
offense to any Federal law enforcement officer for appropriate 
investigation. The measure further authorizes a Federal law enforcement 
officer to investigate such an alleged offense regardless of whether 
such officer receives a referral from the Board.
    The law also requires that the findings of an investigation of such 
an alleged offense by any Federal department or agency be submitted to: 
(1) a Federal or state prosecuting authority; or (2) the Board. The 
bill also revises the requirements for the initiation of civil actions 
for misrepresentation of Indian produced goods by authorizing the Board 
to recommend civil actions to the Attorney General and clarify the 
requirements for the initiation of civil actions, as well as penalties 
for the misrepresentations of such goods. In addition, the law places 
new penalties for goods offered or displayed for sale or sold.

The Value and Necessity of Federal Prosecution and Civil Lawsuits
    As far back as the early 1930s, Congress recognized the need to 
promote the economic welfare of Indian tribes and individual Indians by 
fostering the development of Indian arts and crafts and the expansion 
of the market for the products of Indian art and craftsmanship.
    In 1935, therefore, Congress passed the Indian Arts and Crafts Act 
of 1935 and created the Indian Arts and Crafts Board within the U.S. 
Department of the Interior (DoI) to further these goals through market 
research to optimize product sales, technical research and technical 
advice, the creation of trademarks of genuineness and quality, and 
other undertakings.
    Under the Indian Arts and Crafts Act of 1990 (P.L. 101-644), as 
amended, the Board is authorized to refer complaints to the Federal 
Bureau of Investigation for investigation, and may also recommend to 
the U.S. Attorney General that criminal proceedings be initiated. The 
Board is also empowered to recommend that the Interior Secretary refer 
matters to the U.S. Attorney General for civil actions on behalf of a 
member of an Indian tribe, an Indian tribe, or an Indian arts and 
crafts organization.
    The Indian Arts and Crafts Enforcement Act of 2000 (P.L. 106-497) 
amended the 1990 Act to expand the pool of potential defendants by 
authorizing civil actions against persons who ``directly or 
indirectly'' offer or display for sale or sell goods in contravention 
of the Act. In addition, the Act authorizes Indian individuals to bring 
civil actions on behalf of himself or herself and Indian arts and 
crafts organizations to bring civil actions on behalf of itself.
    Nearly three-quarters of a century after the Federal Government 
acted to protect the welfare of Indian artisans, their tribal 
communities, and the Indian art market, the U.S. government has failed 
to prevent the dilution of the market for legitimate arts. To-date, the 
Federal Government has brought zero criminal prosecutions responsible 
for importing, advertising, and selling counterfeit goods. By all 
accounts, the U.S. Government has rendered the Act a failure by its own 
failure to take legal action. As is the case in other areas of the law, 
there is value of having a high-profile criminal case filed by the U.S. 
Department of Justice (DOJ) against a kingpin or importer of large 
volumes of fake goods. Such a case or cases would send the message that 
this behavior will not be tolerated. Perhaps dividing the 
responsibilities and functions of the DoI and DOJ will improve 
enforcement against such illegal activities by giving the DOJ's Office 
of Tribal Justice the responsibility of enforcing the law with the 
Board providing marketing and education. Other methods may have to be 
used by the Federal government to effectively tackle this problem 
including, for example, enforcing international trade laws.

Conclusion
    Thank you, Chairman Akaka, Vice Chairman Barrasso, and the Members 
of this Committee for allowing us to express our position regarding the 
misrepresentation of Native American arts and crafts. Your continued 
support of Native American communities is truly appreciated, and the 
IACA is eager to work with you and your professional staff on any and 
all issues pertaining to American Indian arts and crafts.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
